<html>
<title> - MISCELLANEOUS LAND BILLS; SECURE RURAL SCHOOLS ACT; DOI VOLUNTEER RECRUITMENT ACT; AND AMEND THE NATIONAL GEOLOGIC MAPPING ACT</title>
<body><pre>[Senate Hearing 109-19]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 109-19
 
   MISCELLANEOUS LAND BILLS; SECURE RURAL SCHOOLS ACT; DOI VOLUNTEER 
      RECRUITMENT ACT; AND AMEND THE NATIONAL GEOLOGIC MAPPING ACT

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   on
                                     

                         S. 179          S. 213

                         S. 267          S. 305

                         S. 476          S. 485

                                     
                               __________

                             MARCH 8, 2005


                       Printed for the use of the
               Committee on Energy and Natural Resources

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2005

20-886 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               JON S. CORZINE, New Jersey
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel

                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                CONRAD R. BURNS, Montana, Vice Chairman

CRAIG THOMAS, Wyoming                RON WYDEN, Oregon
JAMES M. TALENT, Missouri            DANIEL K. AKAKA, Hawaii
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
GEORGE ALLEN, Virginia               DIANNE FEINSTEIN, California
                                     MARIA CANTWELL, Washington

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Frank Gladics, Professional Staff Member
                    Scott Miller, Democratic Counsel



                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     5
Craig, Hon. Larry E., U.S. Senator From Idaho....................     1
Douglas, Bob, President, National Forest Counties and Schools 
  Coalition......................................................    31
Franics, Michael A., Director, National Forests Program, The 
  Wilderness Society.............................................    26
Hatch, Hon. Orrin, U.S. Senator From Utah........................     1
Kearney, Chris, Deputy Assistant Secretary for Policy Management 
  and International Affairs, Department of the Interior..........     9
Rey, Mark, Under Secretary, Natural Resources and the 
  Environment, Department of Agriculture.........................     7
Smith, Hon. Gordon, U.S. Senator From Oregon.....................    22
Wyden, Hon. Ron, U.S. Senator From Oregon........................     4

                                APPENDIX

Responses to Additional Question.................................    41


   MISCELLANEOUS LAND BILLS; SECURE RURAL SCHOOLS ACT; DOI VOLUNTEER 
      RECRUITMENT ACT; AND AMEND THE NATIONAL GEOLOGIC MAPPING ACT

                              ----------                              


                         TUESDAY, MARCH 8, 2005

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Larry E. 
Craig presiding.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. Well, good morning, everyone, and welcome to 
the Public Lands and Forests Subcommittee of the Energy and 
Natural Resources Committee.
    Before I make opening statements--and the ranking member, 
Senator Bingaman, is here, of the full committee--I'm going to 
allow Senator Hatch to make an opening statement in relation to 
a bill before the committee at this time on a land exchange in 
the state of Utah, so that he can return to the Judiciary 
Committee.
    So, Orrin, welcome before the committee. We're ready to 
take testimony on S. 476.

          STATEMENT OF HON. ORRIN HATCH, U.S. SENATOR 
                           FROM UTAH

    Senator Hatch. Well, thank you so much, Mr. Chairman and 
Senator Bingaman. I appreciate your courtesy in letting me go 
first, because I do have a Federal judge up in front of the 
Judiciary Committee.
    I want to thank you again for holding this hearing today 
and for allowing me to testify in support of S. 476, the Boy 
Scouts of America Land Transfer Act of 2005.
    This legislation will allow for the transfer of 120 acres 
between the Utah National Parks Council of the Boy Scouts of 
America and Brian Head Ski Resort. Boy Scouts throughout Utah 
will greatly benefit from this legislation, and I am grateful 
for the opportunity to further explain the need for this bill 
today.
    In a 1983 land patent, the Bureau of Land Management 
granted roughly 1,300 acres to the Boy Scouts of America, to be 
used as a Boy Scout camp. The Scout camp, known as Camp Thunder 
Ridge, is situated in the mountains adjacent to Brian Head Ski 
Resort and near Cedar Breaks National Monument. At the time the 
patent was granted, a local rancher owned parcels of land 
adjacent to, and in the middle of, the camp. And, several years 
ago the rancher gave those lands to Brian Head.
    Now, it is in the interest of both parties to exchange 
these lands. The Scouts need to improve their camp, and Brian 
Head needs access to their land. However, under the patent, 
land cannot be sold or exchanged without an act of Congress; 
thus, the need for S. 476. And in drafting this legislation, I 
worked closely with the Boy Scouts, Brian Head, and the BLM to 
come up with this legislation, for which all parties have 
agreed.
    Mr. Chairman, let me explain why this land is so important 
to the Boy Scouts and why they have fought for more than 20 
years to secure it. The camp is located in a mountainous area. 
Much of it is situated in steep terrain covered with pine and 
aspen trees. There is a small portion of the camp, however, 
that is level and clear, and this area is used by the Scouts 
for their campsites, camping facilities, and shooting and 
archery ranges.
    Currently, Brian Head Ski Resort owns acreage right in the 
middle of this part of the camp. Obtaining additional acreage 
in this area will allow the Boy Scouts to expand their archery 
and rifle ranges. It will allow them to make these ranges safer 
for the boys. It also will help the Scouts expand and improve 
their camping facilities, and will allow them to install much 
needed septic tanks. This small land exchange will allow Camp 
Thunder Ridge to help young Scouts more fully enjoy their 
scouting experience.
    Hundreds of young Scouts visit Camp Thunder Ridge each 
year. The camp caters to both new and experienced Scouts, and 
offers a wide variety of programs and activities. The camp 
provides merit badge classes in Scout-craft handicrafts, 
ecology, shooting, sports, and aquatics. It offers a unique 
opportunity for young men to learn vital skills and further 
their scouting goals. And, as any Scout knows, camps like these 
are essential to moving forward in the scouting program.
    So I fondly look back on my own experiences as a Boy Scout. 
I learned important lessons that certainly continue to serve me 
well. And for that reason, I urge all of the Members to support 
S. 476 and to promptly take action on this important 
legislation.
    And, again, Mr. Chairman and other Members of the 
committee, I thank you for your courtesy to me, and appreciate 
your work on this bill.
    Senator Craig. Senator Hatch, thank you very much. We 
appreciate your work on the Judiciary Committee. Thank you.
    Senator Hatch. Thank you.
    Senator Craig. I have now been joined by Senator Ron Wyden, 
the ranking member of the Subcommittee on Public Lands and 
Forests. And he will certainly make an opening statement in a 
few moments.
    Ron, I have not yet made my opening statement. Let me do 
that, as we move along.
    I think what is most important today, in dealing with the 
legislation before us--we certainly heard of one--we have S. 
179, Sierra National Forest Land Exchange Act of 2003, before 
us today, along with S. 213, the Rio Arriba County Land 
Conveyance Act. I think most of us, though, are most intent on 
S. 267, the Secure Rural Schools and Community Self-
Determination Reauthorization Act of 2005, a bill to 
reauthorize the Secure Rural Schools and Community Self-
Determination Act of 2000. And, also, we have S. 305, 
Department of the Interior Volunteer Recruitment Act of 2005, a 
bill to authorize the Secretary of the Interior to recruit 
volunteers to assist with, or facilitate the activities of, 
various agencies and offices of the Department of the Interior.
    Before I go on with my statement, though, I do want to 
recognize one of the growing benefits of the program of the 
Secure Rural Schools and Community Self-Determination Act. We 
have students with us today from Chelan County, Washington. 
They are part of a 4-H Forestry Education Program funded by 
title II and title III dollars of this very act. Both Senator 
Wyden and I much prefer to call it the Craig-Wyden Act; or, if 
we're in Oregon, it's the Wyden-Craig Act. So the program is 
also in receipt of the ``Caring for the Land'' award from the 
U.S. Forest Service for Outstanding Environmental Education.
    Would you young folks stand up, please, and allow us to 
recognize you. Congratulations on your work. Thank you.
    [Applause.]
    Senator Craig. I think one of the most exciting things for 
both Senator Wyden and me is to see the work that goes on 
within this bill, this law, and the benefits that are now 
accruing. And I thought it appropriate today to introduce those 
young people. They are simply one of hundreds of examples now 
of quality work going on within the program and the funding 
that comes from it.
    I'd like to welcome Under Secretary Mark Rey and Deputy 
Assistant Secretary Chris Kearney, who are here to testify on 
behalf of the Administration on all of the bills I've 
mentioned.
    I also noted that we will be hearing from a couple of old 
friends of the subcommittee today, Bob Douglas, of the National 
Forest County Schools Coalition, and Mike Francis, from the 
Wilderness Society.
    Bob, I want to thank you and the coalition for working so 
hard to make the implementation of the Secure Rural Schools and 
Community Self-Determination Act a success. There are lots of 
counties and people that owe you a tremendous debt of 
gratitude. It is through your effort that we are able to work 
toward reauthorization of this important legislation.
    Mike, it is good to see you again. I am told you are 
generally in favor of the reauthorization of S. 267, but have 
one concern about the shift to who decides when and where to 
use the Log Sort Yard Pilot Program. I look forward to working 
with you to help you understand why further empowerment of the 
local Resource Advisory Committees is good policy. And I do 
look forward to hearing your thoughts on all of the issues in 
relation to the legislation.
    I know many people are put off by the amount of money that 
California, Washington, and Oregon get, relative to other 
states, in the formula we want to reauthorize in S. 267, but we 
have to remember, the formula is based on historic receipts, 
and we have to face facts. Those are the states where the 
timber sales program generated the most receipts.
    Second, I know that some others complain about the $5 
million that New Mexico gets in community forest restoration 
funding, on top of the $2.2 million they get in title I and 
title III payments. Senator Bingaman is here to speak to that 
this morning and to hear testimony on this bill. And I want you 
to know that both title V and title VI of Public Law 106-393 
were part and parcel of the original authorization. They are in 
this reauthorization, and I will stand shoulder to shoulder 
with you and our other Senate colleagues who want to see these 
funding formulas reauthorized as we were back in 2000.
    But I fear that if we start to tinker with the formulas, we 
risk having to tinker with all the provisions of the law. And I 
think what we'll hear this morning is, the law is working well 
and very successfully; in many instances, I think, beyond the 
expectation of both Senator Wyden and myself. Certainly we are 
now hearing tremendously glowing reviews, time and time again, 
as the programs go forward, whether it's county road funds or 
county school funds or these different titles, or, most 
importantly, the tremendous collaborative effort going about 
with the RACs.
    I am told, to date, that over 1,200 different programs have 
been approved by the RACs, and not one of them challenged in 
court. Now, that's some kind of record when we're dealing with 
public policy, especially on our public lands today. Why is it 
happening? Because all parties are at the table, working 
collaborative and cooperatively together, and, when final 
decisions are made, they're made in a way that produces the 
product that ultimately stands on its own, by its own merits. 
So I'm extremely pleased about that.
    Let me turn to my colleague, Senator Wyden, for any opening 
comments he would like to make.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. Thank you, Mr. Chairman. And you've made an 
excellent statement, and I certainly agree with all of the key 
points that you've made, and have only a couple of additions. 
And, like you said, this has really produced a revolution in 
forest-dependent communities. If anybody had said, 5, 6 years 
ago, that the administration, the Forest County Schools 
Coalition, and the Wilderness Society would all be here talking 
about this reauthorization, I think we would have said, ``That 
is one band of brothers you would not have suspected coming 
into being.'' I think it's really a tribute to all--your 
patience, Mr. Chairman, and others who have worked to make this 
coalition possible.
    I'm going to be in and out a bit this morning, but I would 
just like to make one point, in terms of the timetable, and--
with you here, Mr. Chairman, and, of course, our ranking 
minority member who's been so helpful.
    My concern is that the budget is going to be marked up in 
the committee starting tomorrow and Thursday. Now, if the 
Secure Rural Schools legislation is in the budget, then all is 
hunky dory and we can certainly say we're off to the races in a 
promising way. If Secure Rural Schools is not in the budget, 
however, then I'm going to have to try, at least in an effort 
to get it started, to come up with a way to get it in and to 
start coming up with the offsets.
    I would hope, this morning, that we could get a commitment, 
particularly from Mr. Rey, who has just been so helpful and so 
constructive in all of this, that we work through this the rest 
of the day and into the evening to nail down how we ought to 
proceed. I would very much like to have Senator Domenici's 
staff there, Senator Bingaman's staff there, Senator Craig's 
staff, and my staff there, so we can examine essentially where 
we are, given the budget situation.
    If it's in the budget, as I say, we're off to the races. If 
it's not, I think it would be extremely important for the four 
of us--our chair, our ranking minority member, Senator Craig, 
and myself, and there may be other interested Senators; and 
Frank, if you and Sarah can put the word out as well, there are 
other interested Senators. I just think it is important, as we 
go into the afternoon and evening, that we know where we are, 
in terms of the budgetary process.
    And if Mr. Rey would, in his testimony, describe where we 
are; and if we're not in the budget, I would very much like the 
Administration to say, this morning, ``We're on deck to work 
with the bipartisan group in this committee to try to figure 
out how to proceed tomorrow and Thursday,'' because this is the 
first step in the long march, and an extremely important step. 
Because if we don't get some sort of consensus on how to do it 
through the budget process, you just have more challenges down 
the road.
    Other than that, Mr. Chairman, I think you have reflected 
my views very well. And I want to thank, particularly, Senator 
Bingaman and Senator Domenici for all their patience, lo these 
many years, and also Mr. Rey, as well, because he probably 
knows more about this than anyone on the planet, save Sarah and 
Frank. We very much need to keep this bipartisan effort going 
as we go forward over the next couple of days.
    And I thank you.
    Senator Craig. Ron, thank you. And you're absolutely 
correct, this is a critical time that we do need to focus on 
during the balance of the week, actually, but in the next few 
days, as the budget goes to markup.
    With that, let me turn to the ranking member of the full 
Committee on Energy and Natural Resources, Senator Bingaman.
    Senator.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Thank you very much, Mr. Chairman, to you 
and Senator Wyden, both.
    Let me first talk, just a moment, about S. 213, which is 
the Rio Arriba County Land Conveyance Act. I don't believe 
there's opposition to it, and we'll get testimony about whether 
there are technical changes that are needed.
    I do have a letter, Mr. Chairman, that is from the county 
manager for Rio Arriba County, Lorenzo Valdez, and I would ask 
that the letter be included in the record.
    Senator Craig. Without objection.
    [The letter referred to follows:]
                                 Rio Arriba County,
                             Board of County Commissioners,
                                       Espanola, NM, March 1, 2005.
Hon. Larry Craig,
Chairman, Public Lands and Forests Subcommittee, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.

Reference: S. 213--Land Conveyance Act

    Honorable Senator Craig: The Board of County Commissioners of Rio 
Arriba County want to thank the Energy and Natural Resource Committee 
for this opportunity to enter written testimony into the Hearing Record 
in support of S. 213, a bill seeking the transfer of one-hundred-fifty-
seven acres of Bureau of Land Management administered land in the 
vicinity of Alcalde, New Mexico. We want to thank the Honorable 
Senators from New Mexico, Senator Jeff Bingaman and Senator Pete 
Domenici for sponsoring this legislation and also the other members of 
the Energy and Natural Resources Committee for their devoted service to 
their country and their time devoted to this matter.
    The land being requested for transfer is a small portion of the 
Sebastian Martin Land Grant on the lower western slopes of the Sangre 
de Cristo Mountains in the North Central Rio Grande Valley. This 
property is currently subject to the Bank-Head Jones Act, interesting 
legislation that intended these lands to provide economic 
sustainability to the neighboring village communities that were 
dependent on the Land Grants. Instead it has become very difficult to 
acquire the right to use them for important projects in the area. These 
public lands were historically part of the community land base and open 
to the development of that community. Currently, only 30% of the lands 
in Rio Arriba County are in private ownership, 70% are in the public 
domain, this, in a county larger than some states.
    The lands in public jurisdiction are administered by several 
agencies including, the U. S. Forest Service, U. S. Bureau of Land 
Management, U. S. Bureau of Indian Affairs (Trust Lands) and the New 
Mexico State Land Office. This land transfer is necessary for the 
health, safety and welfare of the communities of Rio Arriba County. The 
lands being requested are not pristine wild lands. They are adjacent to 
private developed properties and have been industrialized or disturbed 
utilizing lease applications. These leases are problematic and 
negatively affect proper planning and management.
    The Alcalde Mutual Domestic Water Association has their domestic 
water supply infrastructure on part of the land requested. This 
activity includes water storage tanks, wells and right of way easements 
for water transmission lines. Rio Arriba County has a solid waste 
collection station on the premises and needs room to expand for 
services that will protect the surrounding public land from illegal 
dumping. The county also has to relocate the road department yard 
because it is now in a very sensitive area near a historical building 
in a densely populated neighborhood. A small scale rural industrial 
park for light manufacturing, storage facilities and other business 
activities are in the plans. The local school system has an elementary 
school across the highway and the buildings are old and failing, they 
may need a place to relocate that facility.
    The County respectfully suggests to The Congress that a 
streamlined, affordable process of transferring land to local 
governments for critical needs be implemented. A flexible 
administrative process that serves local needs with sensible protective 
regulation should be developed. The history of the people of New 
Mexico, Native, Colonial and Recent immigrants have made for a complex 
relationship and the growth demands are increasing, preserving land for 
out of state recreationists and commercial interests are valid 
concerns, but the critical needs of the surrounding constituency should 
have priority.
    Thank your for your attention to these important matters.
            Sincerely,
                                         Lorenzo J. Valdez,
                                         Rio Arriba County Manager.

    Senator Bingaman. I'm also glad that we're considering S. 
485, which is the National Geologic Mapping Reauthorization 
Act. I've co-sponsored that. I know that you have, as well, Mr. 
Chairman. I also have a question or two about that.
    Finally, on S. 267, obviously I've supported that bill. I 
continue to support it. I am concerned that, as currently 
constructed, it does result in the vast majority of the 
receipts going to a very few States. I think it's appropriate, 
before we lock into another 7 years of this legislation--and 
this is a reauthorization that would extend through 2013--that 
we look at that formula and see if we can't find a way that 
would allow more States to benefit, in a real way, from the 
legislation.
    I'm also concerned about the implementation of and proposal 
to eliminate the requirements of the Merchantable Material 
Contracting Pilot Program. I'll have some questions of the 
witnesses on that issue, as well.
    Thank you.
    Senator Craig. Senator, thank you very much. I agree with 
you, I'm not hearing of any pushback on S. 213. That ought to 
be able to move fairly quickly.
    Now let me invite to our witness table the Honorable Mark 
Rey, Under Secretary for Natural Resources and the Environment, 
Department of Agriculture, and Chris Kearney, Deputy Assistant 
Secretary, Policy Management and Budget, Department of the 
Interior.
    Gentlemen, welcome to the subcommittee. And, Mark, we will 
start with you. Please proceed.

 STATEMENT OF MARK REY, UNDER SECRETARY, NATURAL RESOURCES AND 
           THE ENVIRONMENT, DEPARTMENT OF AGRICULTURE

    Mr. Rey. Mr. Chairman and members of the subcommittee, 
thank you for giving me the opportunity to present the views of 
the Department of Agriculture on S. 267 and S. 179, the Sierra 
National Forest Land Exchange.
    S. 267, the Secure Rural Schools and Community Self-
Determination Reauthorization Act of 2005, extends the 2000 
legislation, which, itself, embraced three objectives: one, to 
establish a stable payment for schools and roads that 
supplements other available funds; two, to make additional 
investments in public and adjacent private lands; and, three, 
to improve the cooperative relationships among the people who 
use and care for Federal lands and the agencies who manage 
them. The Act authorizes payments from fiscal year 2001 through 
2006; hence, the need for a reauthorization before the end of 
fiscal year 2006.
    In my testimony before the subcommittee a month ago today, 
I indicated that our experience is that the statute is working 
to achieve each of the three objectives that I just delineated.
    Our experience in implementing the Secure Rural Schools Act 
has shown that a stable payment to States has been achieved; 
the establishment of Resource Advisory Committees has created a 
better working relationship with local communities in the 
Forest Service and the Bureau of Land Management in 
implementing projects under title II of the Act; and these 
projects have had a positive impact on improving natural 
resources conditions on Federal lands.
    Receipts have not been sufficient to cover the payments 
required to be paid under the Secure Rural Schools Act; 
however, the Act requires any shortfall to be paid out of funds 
in the Treasury.
    The administration could support S. 267, the 
reauthorization of the 2000 Act, if amended with agreed-upon 
savings that fully offset the cost of the bill in fiscal years 
2007 and beyond, and if the bill is amended to incorporate 
other technical or relatively minor changes specified in our 
testimony. The administration would be happy to work with the 
committee and the Budget Committees of the House and the Senate 
to identify necessary offsets.
    With respect to S. 179, the Sierra National Forest Land 
Exchange Act of 2005, the Department supports enactment of S. 
179.
    With that, I'll submit my full testimony for the record and 
be happy to respond to your questions.
    [The prepared statement of Mr. Rey follows:]
Prepared Statement of Mark Rey, Under Secretary, Natural Resources and 
    the Environment, Department of Agriculture on S. 267 and S. 179
    Mr. Chairman and Members of the Subcommittee, thank you for giving 
me the opportunity to present the views of the U.S. Department of 
Agriculture on S. 267, a bill to reauthorize P.L. 106-393, the Secure 
Rural Schools and Community Self-Determination Act of 2000 and S. 179, 
the Sierra National Forest Land Exchange.
   s. 267--the secure rural schools and community self-determination 
                      reauthorization act of 2005
    The Secure Rural Schools and Community Self-Determination 
Reauthorization Act of 2005, P.L. 106-393 (``Secure Rural Schools 
Act'') embraces three objectives: 1) to establish a stable payment for 
schools and roads that supplements other available funds; 2) to make 
additional investments in public and adjacent private lands; and 3) to 
improve the cooperative relationships among the people who use and care 
for federal lands, and the agencies who manage them. The Act authorizes 
payments for FY 2001-2006.
    S. 267 would reauthorize P.L. 106-393 for an additional seven years 
and would amend other provisions of the Act. The bill would clarify 
that states must notify the Secretary of Treasury of their counties 
elections to receive their share of either the 25 percent payment or 
the full payment amount. The bill would provide an opportunity for 
counties to return to the 25 percent payment if they wish to do so 
(currently, if a county elects to receive its share of the states full 
payment amount, the county may not changes its election). Additionally, 
S. 267 would clarify the source of payments to be reserved by the 
Secretary of the Treasury to make payments to the states and would 
revise the conditions for appointments of Resource Advisory Committee 
members to provide greater flexibility. S. 267 also would revise the 
merchantable material pilot program to authorize projects under this 
program if they are recommended by RACs. Finally the bill would add 
notification and reporting requirements for the Secretary regarding 
county projects under Title III of P.L. 106-393.
    Our experience in implementing the Secure Rural Schools Act has 
shown that a stable payment to States has been achieved, the 
establishment of Resource Advisory Committees (RACs) has created a 
cooperative working relationship with local communities and the Forest 
Service in implementing projects under Title II of the Act, and these 
projects have had a positive impact on improving natural resource 
conditions on National Forests and Grasslands.
    Receipts have not been sufficient to cover the payments required to 
be paid under the Secure Rural Schools Act. However, the Act requires 
any shortfall to be paid out of funds in the Treasury. The 
Administration could support S. 267, if amended with agreed upon 
savings that fully offset the cost of the bill in FY 2007 and beyond, 
and if the bill is amended to incorporate other changes. The 
Administration will be happy to work with the committee and the budget 
committees of the House and Senate to identify offsets.
Amendments to S. 267
    The Administration would like to continue to work with the 
subcommittee on recommended changes to the proposed legislation that 
would improve the legislation. For example, we recommend that section 
2(c) of the bill be removed and we oppose the inclusion of the 
notification and reporting requirements regarding county projects under 
Title III of the Secure Rural Schools Act as described in Section 2(f) 
of the bill. We have concerns about this provision as it requires the 
Secretary to monitor and report on the use of these funds. We would 
also like to work with the Committee on other technical and substantive 
amendments which the Administration will be providing.
      s. 179--the sierra national forest land exchange act of 2005
    The Department supports S. 179. Evaluation of the properties was 
previously conducted. Based on this valuation and resource analysis, 
the Administration believes the public is receiving above market value 
for the Federal property. S. 179 authorizes the exchange of 160 acres 
of Federal land on the Sierra National Forest in California for 80 
acres of non-Federal land within one year of the date of enactment. The 
bill would provide for the exchange of a private in-holding for two 
isolated parcels of federal land, thus improving management efficiency 
for the Sierra National Forest.
    An existing federal hydropower project is located on a portion of 
the federal parcel. The federal parcel is adjacent to and also 
partially inundated by Shaver Lake. The lake is part of the Big Creek 
System that produces up to 1,056 megawatts of electricity. The Boy 
Scouts of America operate a scout camp on land adjacent to the federal 
parcel and conduct some of their activities on the Sierra National 
Forest for which they have a special use permit.
    S. 179 specifies that the value of Federal land is $250,000 and the 
value of the non-Federal land is $200,000. The bill gives the Secretary 
the authority to accept a cash equalization payment equal to 20 percent 
of the value of the Federal land or 25 percent of the value of the non-
Federal land. The conveyance would be subject to a condition that the 
recipient of the Federal land would agree to convey the land, within 
four months to the Sequoia Council of the Boy Scouts of America. Under 
section 3(a)(1) of the bill, the conveyance would also be made subject 
to valid existing rights. These valid existing rights would include the 
terms of the easement required under section 4(b).
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions you may have for me at this time.

    Senator Craig. Mark, thank you very much.
    And now, Chris, if you would proceed, please?

  STATEMENT OF CHRIS KEARNEY, DEPUTY ASSISTANT SECRETARY FOR 
POLICY MANAGEMENT AND INTERNATIONAL AFFAIRS, DEPARTMENT OF THE 
                            INTERIOR

    Mr. Kearney. Thank you, Senator.
    I'm pleased to be here to discuss the administration's 
views on five bills being heard by the committee: S. 267, S. 
476, S. 213, S. 485, and S. 305. And, in the interest of time, 
I will very briefly mention each of them.
    First, on S. 267, Secure Rural Schools bill, Mr. Rey has 
outlined the key elements of the legislation. We, at the 
Department of the Interior, have all, as well, enjoyed a 
successful effort with the legislation. It has provided us with 
a number of benefits, particularly the BLM. Our Resource 
Advisory Committee process has served as a catalyst to bring 
together diverse groups and individuals with a shared goal of 
improving our public lands. And, to date, the BLM's five RACs 
have recommended for approval over $33 million in title II 
projects, which have allowed the agency to undertake a greater 
amount of on-the-ground restoration activities than would have 
otherwise been possible. Reauthorization of the Act under S. 
267 will strengthen those efforts.
    The administration, as Mr. Rey said, can support S. 267, if 
amended, with agreed-upon savings that fully offsets the cost 
of the bill in 2007 and beyond, and if the bill is amended to 
incorporate our other changes, the specific concerns with 
respect to provisions described in my written statement. We 
would be pleased to work with the subcommittee and the Budget 
Committees to address this and other amendments to improve the 
bill.
    S. 476, the Boy Scouts of America Land Transfer Act of 
2005, provides for the exchange of lands between two private 
parties, the Utah National Parks Council and the Boy Scouts of 
America and Brian Head Resort. The Department of the Interior 
has a limited role in this legislation in the exchange it 
facilitates, but does not oppose the legislation.
    S. 213, the Rio Arriba County Land Conveyance, which would 
convey approximately 150.86 acres of land managed by the BLM in 
Rio Arriba County, New Mexico, to the county for the purpose of 
providing local government facilities, a new public school, and 
a cemetery.
    The Department supports the conveyance. We recommend some 
technical clarifications to the bill, and would like the 
opportunity to work with the sponsor and the subcommittee to 
develop language to address those clarifications.
    S. 485, a bill that would reauthorize the National 
Geological Mapping of 1992. Throughout the USGS's history, 
geological mapping has been one of our core capabilities, and 
mapping has been an integral part of the history of State 
geological surveys, as well. Such mapping has yielded dividends 
far beyond its original intended results. Today, the National 
Cooperative Geological Mapping Program has been extremely 
effective, looking back over the past 13 years, in providing a 
benefit to the Nation, and the administration supports this 
reauthorization bill.
    Finally, I'd like to conclude by briefly discussing S. 305, 
the Interior Department's Volunteer Recruitment Act, which 
would allow the Secretary to recruit volunteers to assess the 
activities of various agencies and offices of the Department. 
We strongly support this bill and encourage its enactment. This 
bill will fill many statutory gaps, providing authority for the 
Bureau of Indian Affairs and the Office of the Secretary to 
work with volunteers to support the renewal of the Take Pride 
in America program, and perfecting the existing volunteer 
authority of the USGS and the Bureau of Reclamation.
    That concludes my opening statement, and I'd be happy to 
answer any questions.
    [The prepared statement of Mr. Kearney follows:]
  Prepared Statement of Chris Kearney, Deputy Assistant Secretary for 
      Policy and International Affairs, Department of the Interior
                               on s. 305
    S. 305, the Department of the Interior Volunteer Recruitment Act of 
2005, would allow the Secretary of the Interior to recruit volunteers 
to assist with the activities of various agencies and offices of the 
Department of the Interior. The Department of the Interior strongly 
supports this bill and urges that it be enacted. It is consistent with 
the Administration's program. Through our Take Pride in America 
program, the Department of the Interior recruits, supports, and 
recognizes volunteers who work to improve our public lands and cultural 
and historic sites. Volunteers across America help public land managers 
fix fences and trails, stabilize soils, replant stream banks devastated 
by forest fires, restore historic buildings, teach kids to fish, 
collect data and monitor bird populations. They direct their energy to 
serving the American public and building a culture of responsibility.
    Currently, just five of the Interior Department's eight bureaus 
have authority to accept volunteers, and two of these have only limited 
authority to use volunteers. Statutory provisions regarding the proper 
limitations on using volunteers are inconsistent or nonexistent. S. 305 
would provide clear authority to pay for incidental services or costs 
associated with volunteers, such as providing supplies or 
transportation to a work site, and for training and supervision of 
volunteers. This bill would fill many statutory gaps, providing 
authority for the Bureau of Indian Affairs and the Office of the 
Secretary to work with volunteers to support the renewal of the Take 
Pride in America program, and perfecting the existing volunteer 
authority of the United States Geological Survey and the Bureau of 
Reclamation. The Department of the Interior is therefore pleased to 
support the passage of this legislation.
    The bill is entirely consistent with existing authorities. It does 
not disturb the current statutory volunteer authority of the three 
bureaus that presently have sufficient authority and avoids disruption 
of existing programs to the maximum extent possible. This bill would 
not displace employees.
    The Department of the Interior is a leader in the federal 
government in providing opportunities for volunteer service. Because of 
our unique mission in support of the Nation's natural and cultural 
heritage, we believe that expanding volunteer authority makes eminent 
good sense and that this bill is suitably drafted for that purpose. If 
this bill is enacted, Americans will have opportunities, for example, 
to volunteer as tutors in BIA schools. Nineteenth century French writer 
Alexis de Tocqueville observed that the United States was a nation of 
voluntary associations. S. 305 will help to make sure our 21st century 
laws keep this spirit of volunteerism alive.
                               on s. 485
    Mr. Chairman, I am pleased to be here today to express the 
Administration's views on S. 485, a bill that would reauthorize the 
National Geologic Mapping Act of 1992. The Administration supports the 
reauthorization, but is concerned that the funding level proposed for 
reauthorization exceeds current appropriations by $38.8 million. Any 
additional funding for the National Cooperative Geologic Mapping 
program will have to compete with other priorities
    Throughout USGS history, geologic mapping has been one of our core 
capabilities. For state geological surveys, some founded even earlier 
than the USGS, geologic mapping has been an integral part of their 
history as well. A map is the best and most understandable way of 
portraying a great variety of geologic information. The diversity of 
information produced by a geological map includes: the distribution of 
mineral, energy and ground water resources; presently active faults 
whose movements may cause devastating earthquakes; and the distribution 
of surficial deposits that form the substrate for wetlands and other 
ecologically diverse settings. Geologic maps and investigations assist 
in understanding the processes responsible for creating the natural 
hazards and can extend the knowledge of past events beyond the brief 
time for which human observations are available. This work is critical 
in assessing the extent, severity, and likelihood of future events. 
Wildfires can create conditions that intensify the potential for damage 
from landslides and excessive erosion in burned-over areas. Hurricanes, 
floods, and tsunamis leave traces of their destruction in the geologic 
record (through both erosion and sediment deposition), thereby allowing 
assessment of long-term risk. These insights can facilitate risk 
reduction through opportunities to limit damage and loss of life 
through the designs and placements of future structures. State 
Geological Surveys and the U.S. Geological Survey play vital advisory 
roles in such loss-reduction activities. They also aid others in 
identifying the vulnerability associated with existing structures, 
which is necessary to facilitate cost-effective mitigation efforts. 
Maps depicting site response to ground shaking provide essential 
background information for establishing building codes and defining 
mitigation strategies. The stakes are high because these hazards 
collectively cause tens of billions of dollars of annualized damage in 
the United States. Fortunately, much can be done to reduce the risks 
and lower the future damages. In the case of assessing the 
vulnerability of buildings, as in many others, mapping has yielded 
dividends far beyond its original intended goals.
    When the 102nd Congress passed the National Geologic Mapping Act, 
it recognized that the USGS and the State geological surveys needed a 
coordinated program to prioritize the geologic mapping requirements of 
the Nation, and to increase the production of geologic maps. Geologic 
mapping has always been, and continues to be, a labor intensive 
exercise that involves field work to collect information; laboratory 
work to better understand the composition, properties and age of the 
materials collected; and the use of remote sensing to better 
extrapolate what has been learned in one location to a larger area. All 
of these aspects of geologic mapping cost money and require skilled 
practitioners. It becomes critically important for the USGS and the 
fifty State geological surveys to husband and leverage their resources. 
I can confidently tell you today that the National Cooperative Geologic 
Mapping Program has been extremely effective over the past 13 years 
doing exactly that. I would like to share some milestones of progress 
with you.
    During the 13 years since passage of the Act, USGS and the State 
geological surveys have produced well over 7,500 new geologic maps. In 
2004 alone, over 400 geologic maps and reports were published. Data in 
these maps cover a combined area of nearly 100,000 square miles. The 
high priority areas selected to map were determined by stakeholder 
groups, land management agencies, and state mapping advisory 
committees.
    During the last 13 years geologic maps have been completed in 
National Parks, National Forests, and lands managed by BLM and other 
land-management agencies. To give one timely example, geologic maps of 
all four major National Forests in southern California were completed 
in the past year. These maps were put to good use by the Burned Area 
Emergency Response teams (BAER) that responded to the fires that 
devastated large areas between Los Angeles and San Diego. They are 
continuing to be used during the winter rainy season to predict where 
major debris flows, and or mud slides, might endanger the local 
communities.
    In 1993, the first year after initial passage of the Act, 34 state 
geological surveys and the USGS participated in this program to produce 
new geologic maps. In 2004 the number of State geological surveys 
participating has grown to 47. In that first year, $1.2 million was 
distributed to the state surveys. Since 2001 over $6 million in federal 
funds has been matched annually by state survey dollars. Cumulatively, 
over the 13 years of the program, over $55 million has been distributed 
to 48 states, and these federal dollars were matched by state dollars.
    In 1995 the education component of the program, EDMAP, was 
implemented to train the next generation of geologic mappers. This 
training component fills a gap generally not addressed through National 
Science Foundation grants and other mechanisms. In the first year of 
the program, fewer than 40 students received funds to do field work and 
learn how to construct a geologic map. Currently, over 550 university 
students from 120 universities across the Nation have received 
training. Initially, EDMAP only supported graduate students. In 2000, 
the decision was made to expand support to undergraduate students in 
the hope that this would positively influence their decision to 
continue in the Earth Sciences. We are presently in the process of 
surveying all former EDMAP recipients. I can report, from the 
information received to date, that this training program has been 
successful. Of those surveyed candidates that have responded, 100% of 
the Masters and Ph.D. candidates and 82% of the B.S. candidates have 
all continued in geoscience. These figures are above the national 
averages and attest to the strength of EDMAP.
    In 1999 two economists from the Illinois State Geological Survey 
teamed up with the Kentucky Geological Survey to undertake a rigorous 
analysis of the economic benefits of detailed geologic mapping to 
Kentucky. Two conclusions from this study are particularly worth 
mentioning. First, the total value of the geologic mapping program, at 
the minimum, is at least 25 times the cost of the program. Second, even 
though the bedrock geologic maps produced in Kentucky were originally 
created primarily for the coal industry, during the past 20 years these 
maps have been used by a wide array of users for everything from 
exploring for groundwater resources to planning cities to finding 
minerals.
    Currently, USGS is in close coordination and agreement with the 
Association of American State Geologists (AASG) on this reauthorization 
bill and on associated geologic mapping issues. During the past year we 
have met to discuss the Act (P.L. 106-148) frequently, and while we 
recommend a few changes which I will discuss in a moment, we feel that 
the National Geologic Mapping Act continues to serve the Nation very 
well and needs little revision. The Act was also reviewed by the 
Federal Advisory Committee to the National Cooperative Geologic Mapping 
Program last month, and my comments today incorporate their conclusions 
as well.
    The principal changes in this reauthorization bill are: First, an 
increase from 48% to 50% of new funds, if appropriated, that will be 
made available for matching-funds grants to State geological surveys, 
second, an increase from 2% to 4% of new funds for matching-funds 
grants to Universities to train the next generation of geologic 
mappers, and third, keeping future authorization levels equal to the 
2005 level in the present Act.
    With the development of digital mapping technology and the 
Internet, geologic maps have become the most effective means of 
providing decision-makers and their geo-technical consultants with 
information that they need. All geologic maps being produced today 
under the auspices of the National Cooperative Geologic Mapping Program 
are digital, and each year more and more of these maps are being 
provided on the Internet. However, due to the labor intensive nature of 
producing geologic maps, a large percentage of the Nation has yet to be 
mapped. We are encouraged by this legislation to continue in this 
critical effort. With the development of digital mapping technology, 
geologic mapping is experiencing a renaissance in its use and 
applicability. During the past 13 years the USGS and the state 
geological surveys have worked together to implement the National 
Geologic Map Database, as called for in the Act. While this database 
provides a variety of tools and services, I would like to highlight 
just one--a catalog that provides information on almost every geologic 
map ever produced in the United States, and how anyone can obtain 
copies of the maps. This invaluable information spans 60,000 products.
    In 2004, the American Geological Institute (AGI) published a new 
booklet entitled Meeting Challenges with Geologic Maps. The USGS, the 
Association of American State Geologists, the National Park Service, 
and the Geological Society of America worked with AGI to produce this 
educational publication. It provides many excellent examples of how 
geologic maps are a public good and provide benefit to the Nation. This 
would not be happening without the National Geologic Mapping Act.
    Mr. Chairman, in concluding my remarks, I would like to state that 
the National Geologic Mapping Act of 1992, and its subsequent 
reauthorizations, have been instrumental in helping focus attention on 
the Nation's need for a new generation of high-quality geologic maps. 
The Administration supports the reauthorization, but is concerned that 
the funding level proposed for reauthorization significantly exceeds 
current appropriations. Any additional funding for the National 
Cooperative Geologic mapping program will have to compete with other 
priorities.
    Thank you, Mr. Chairman, for the opportunity to express the views 
of the Administration on the National Geologic Mapping Act. I would be 
happy to respond to any questions you may have.
                               on s. 213
    Thank you for the opportunity to present testimony on S. 213, the 
Rio Arriba County Land Conveyance Act. S. 213 would convey 
approximately 150.86 acres of land managed by the Bureau of Land 
Management (BLM) in Rio Arriba County (County), New Mexico, to the 
County for the purposes of providing County facilities, a new public 
school, and a cemetery for a local parish on the lands. The Department 
supports the conveyance. We recommend some technical clarifications to 
the bill, and would like the opportunity to work with the sponsors and 
the Subcommittee to develop language to address these clarifications.
    The lands proposed for conveyance in S. 213 are located to the 
north of Santa Fe, in the vicinity of Alcalde in north-central New 
Mexico. The growing population in Rio Arriba County has led to an 
increasing demand for municipal services. However, Rio Arriba County 
has a limited land base, and has been working with the BLM in an effort 
to acquire Federal land for use in the County's efforts to provide 
expanded services.
    Under the Recreation and Public Purposes (R&PP) Act, the BLM can 
administratively transfer Federal lands to local governments at a 
reduced price, for various public purposes, including schools and 
municipal facilities. If the lands to be conveyed under S. 213 were 
part of the public domain, the BLM would have been able to transfer the 
lands under R&PP Act without the need for authorizing legislation. 
However, these lands are located on the Sebastian Martin Land Grant and 
were acquired by the Federal government under the Bankhead-Jones Act. 
The R&PP Act does not apply to acquired lands. Section 3(c) of S. 213 
resolves this issue by directing that the land conveyed under the 
legislation be treated as public land for purposes of the R&PP Act.
    Under the R&PP Act, local governments may purchase Federal lands at 
reduced prices. The R&PP Act authorizes a schedule of reduced prices 
established by the Secretary, based upon the fair market value of the 
property, with a reduction based on the proposed use. For most public 
purposes, a local government may purchase Federal lands under the R&PP 
Act for $10 per acre. The special pricing applies to land which will be 
under the control of the local government, used for government 
purposes, and serve the general public. Examples include land on which 
facilities will be constructed for education and public health, fire 
and law enforcement, administrative services, social services, storage 
and maintenance, and public works. We would like the opportunity to 
work with the Subcommittee to clarify exactly which lands among the 
150.86 acres are proposed for which specific uses and to develop a more 
precise map. Once we have that information, the Secretary would be able 
to apply the provisions of the R&PP Act to determine the appropriate 
price to be paid by the County.
    We believe some clarifications to the legislation would be helpful. 
The bill should clarify that valid existing rights are protected. In 
addition, the bill should resolve the inconsistency between Section 
3(a), which directs the Secretary to convey ``all right, title, and 
interest'' in the lands, and the R&PP Act, under which the mineral 
estate is reserved to the United States. In addition, conveyances under 
the R&PP Act require analysis under the National Environmental Policy 
Act (NEPA). Also, because the lands to be conveyed under S. 213 were 
identified for retention under the BLM's Taos Resource Management Plan 
(RMP), the RMP will need to be amended. Completion of the requisite 
NEPA analysis and RMP amendment may not be possible within the one-year 
time frame prescribed for the land transfer under bill.
    Thank you again for the opportunity to testify. We look forward to 
working with the Subcommittee to help achieve a positive result. I will 
be happy to answer any questions.
                               on s. 267
    Thank you for the opportunity to testify at today's hearing on S. 
267, the ``Secure Rural Schools and Community Self-Determination 
Reauthorization Act of 2005.'' The underlying Act, the Secure Rural 
Schools and Community Self-Determination Act of 2000 (P.L. 106-393) 
will expire on September 30, 2006. S. 267 extends the authorization of 
P.L. 106-393 from 2006 until 2013. The Department could support S. 267 
if amended with agreed-upon savings that fully offset the costs of the 
bill in fiscal year 2007 and beyond, and if the bill is amended to 
incorporate other changes. The Administration would be pleased to work 
with the Subcommittee and the appropriations committees to address this 
and other amendments to improve the bill.
Background
    As we testified at the Subcommittee's February 8, 2005, oversight 
hearing on implementation of the Act, in addition to the rangeland 
managed by the Bureau of Land Management (BLM), the agency also manages 
55 million acres of forests and woodlands on the public lands, some 2.5 
million of which are located in the 18 western Oregon counties covered 
by the ``O&C Act'' (Revested Oregon and California Railroad and 
Reconveyed Coos Bay Wagon Road Grant Lands Act of 1937.) Of the public 
lands managed by the BLM, the Secure Rural Schools Act applies 
exclusively to the 18 O&C counties in western Oregon.
    Congress set the stage for the long and close association between 
the BLM and the O&C counties when, in the O&C Act, it directed the 
Department of the Interior to manage the O&C lands for ``the purpose of 
providing a permanent source of timber supply, protecting watersheds, 
regulating stream flow, and contributing to the economic stability of 
local communities and industries, and providing recreational 
facilities.'' The O&C counties receive approximately 50 percent of the 
receipts from timber harvested from public lands in the counties.
    By the late 1980s and early 1990s, litigation regarding the 
northern spotted owl resulted in steep reductions in timber harvests in 
the Pacific Northwest, and correspondingly steep reductions in income 
to counties that depended on revenues from timber harvests on public 
lands to fund essential local government services. In the years between 
1989 and 1993, income to O&C counties from timber harvests dropped by 
nearly 30 percent, to approximately $79 million. In response to this, 
Congress enacted ``safety net payments'' to stabilize income flow to 
timber-dependent counties during this tumultuous period, through the 
Omnibus Budget Reconciliation Act of 1993 (P.L. 103-66).
    In 2000, Congress repealed the ``safety net payments'' and enacted 
the Secure Rural Schools Act to set a stable level of payments to 
counties. The Act provided the O&C counties with the option of 
receiving a full payment amount equal to the average of their three 
highest timber receipt years from 1986 through 1999. In addition, under 
the Act the counties elect the percentage of the payment (80-85 
percent) to be distributed directly to the counties (Title I), and the 
remaining percentage (15-20 percent) to be allocated between Title II 
projects (administered by the BLM), Title III projects (administered by 
the counties), or returned to the Treasury.
    Under Title II, funds are used to support cooperative projects, 
under the guidance of Resource Advisory Committees (Committees), to 
restore healthy conditions on public lands or on private lands for the 
benefit of public land resources. Such projects include wildfire hazard 
reduction, stream and watershed restoration, forest road maintenance, 
and road decommissioning or obliteration, control of noxious weeds, and 
improvement of fish and wildlife habitat. Under Title III of the Act, 
counties may use funds for emergency services, community service work 
camps, purchase of easements for recreation or conservation, forest 
related after-school programs, and fire prevention activities.
    The Resource Advisory Committee process authorized by the Act has 
served as a catalyst to bring together diverse groups and individuals 
with the shared goal of improving the condition of our public lands. In 
projects selected through collaborative decision-making, the BLM has 
worked in partnership with state and local governments and stakeholders 
to improve the condition of the O&C lands and support the development 
of community-based strategies to protect these communities from 
catastrophic wildfire.
    To date, the BLM's five Resource Advisory Committees have 
recommended for approval over $33 million in Title II restoration 
projects on public lands or for projects on private lands that enhance 
public lands. The Act has allowed the BLM to undertake a greater amount 
of on-the-ground restoration activities than would otherwise have been 
possible. Reauthorization of the Act, under S. 267, will strengthen 
these efforts.
S. 267
    Section 2(a) of the bill extends the payments authorized under all 
three titles of the Act from 2006 to 2013. As amended, the payment 
authorities would sunset on September 30, 2013, and any funds not 
obligated by September 30, 2014, would be returned to the Treasury.
    Section 2(b) of the bill amends, among other things, Section 
103(b)(1) of the Act to extend the counties' election to receive 50 
percent payments through fiscal year 2013, and adds language to that 
Act that authorizes the Secretary of the Treasury to give counties the 
opportunity to elect in writing during the last quarter of fiscal year 
2006 to begin receiving the 50 percent payment effective with the 
payment for fiscal year 2007.
    Section 2(c)(2) of the bill amends the Act to state that if the 
Secretary of the Treasury determines that a shortfall in revenues is 
likely, all revenues, fee, penalties and miscellaneous receipts , 
subject to certain limited exceptions, shall be reserved to make 
payments to the counties for that fiscal year. We believe this section 
is unnecessary and concur with the Forest Service in recommending that 
it be removed from the bill.
    Section 2(e) of S. 267 amends the ``Merchantable Material 
Contracting Pilot Program'' authorized by Section 204(e)(3) of the Act 
to authorize the Secretary to establish a pilot program at the request 
of a Resource Advisory Committee to implement one or more the projects 
recommended by the Resource Advisory Committees. While we have no 
objection to the amendment, we urge the Subcommittee to consider 
whether the goals of the Pilot Program can be more effectively reached 
using Stewardship Contracting authority to implement Title II projects 
with merchantable materials.
    Section 2(f) of the bill amends the Act to add notification 
requirements by counties receiving funds under the Act. Specifically, 
it requires participating counties to submit to the Secretary written 
notification specifying each project for which the county obligated 
funds during the fiscal year. The Secretary is then required to review 
the notifications to assess the success of participating counties in 
achieving the purposes of the bill. Additionally, Section 2(f) amends 
the Act to require the Secretary to prepare an annual report containing 
the results of the most recent reviews conducted by the Secretary. We 
have concerns about this provision as it requires the Secretary to 
monitor and report on the use of these funds.
    To address these and other concerns, the Administration would like 
to work with the Committee on other technical and substantive 
amendments which we will be providing. As stated earlier, the 
Department could support S. 267, if amended with agreed-upon savings 
that fully offset the costs of the bill in fiscal year 2007 and beyond.
    I would be happy to answer any questions.
                               on s. 476
    Thank you for the opportunity to testify on S. 476, the Boy Scouts 
of America Land Transfer Act of 2005, introduced by Senator Hatch. The 
Department of the Interior has a limited role in this legislation and 
the exchange it facilitates, but does not oppose the legislation.
Background
    During the 1970s, the BLM patented nearly 1400 acres of public land 
through four separate Recreation and Public Purposes (R&PP) Act patents 
to the Utah National Parks Council of the Boy Scouts of America for the 
purpose of establishing a campground and recreational area for scouting 
programs. The campground is now known as Camp Thunder Ridge. Among the 
restrictions placed on the lands under the provisions of the R&PP Act 
patents is a prohibition on the sale, transfer or exchange of the 
lands. Absent this legislation, the Utah National Parks Council of the 
Boy Scouts would not be able to complete the proposed exchange.
S. 476
    S. 476 provides for the exchange of lands between two private 
parties, the Utah National Parks Council of the Boy Scouts of America 
and Brian Head Resort. The legislation mandates that the terms and 
conditions that apply to the original Federal patent for the parcel of 
land to be exchanged by the Boy Scouts shall be transferred to the 
parcel of land to be acquired by the Boy Scouts. The bill further 
stipulates that the lands are of approximately equal value.
    Because the land which the Boy Scouts propose to exchange with 
Brian Head Resort was patented by the Bureau of Land Management (BLM) 
under the R&PP Act, the Federal government retains a reversionary 
interest in the land if the terms and conditions of the original patent 
are violated. As noted, the legislation would transfer the terms and 
conditions contained in the original patent to the new parcel of land, 
creating a reversionary interest in those lands.
    The lands proposed for exchange under this bill are in southwestern 
Utah, near Cedar City in Iron County. It is our understanding that the 
intent of both parties is to consolidate their respective lands in 
order to allow for their more efficient use.
    Given that the Federal government's interest in this legislation is 
limited to its reversionary interest, we support the language applying 
the terms and conditions of the original parcel to the parcel to be 
acquired. While the BLM does not have independent knowledge of the 
value of the parcels proposed for exchange, the legislation stipulates 
that these parcels are of equal value. Ensuring that the parcels to be 
exchanged are of equal value is critical to protecting the Federal 
government's interest. Finally, we support the provision in section 
3(b)(2) of the bill that provide for Secretarial discretion in the 
exercise of the Federal government's reversionary interest. Given the 
potential risks or liabilities that may exist with improvements or 
hazards on the property, we strongly support this provision.
    Thank you for the opportunity to testify, I will be happy to answer 
any questions.

    Senator Craig. Gentlemen, thank you very much.
    Ron and I were looking out the window at that moisture.
    [Laughter.]
    Senator Craig. Very envious of it for Idaho and Oregon. 
We're in deep trouble out in our Western States this spring--
winter and spring--at least to date, with the absence of 
moisture.
    Anyway, again, thank you. Mark, let me start with you, and 
thank you for your testimony.
    Since I want to spend most of our time on S. 267, let me 
say thank you for your support of S. 179. I'm sure that the Boy 
Scouts and Senator Feinstein will appreciate that.
    I see, in your testimony, the administration is taking the 
fiscally responsible position of supporting S. 267, providing 
offsets can be found in the fiscal year 2007 and beyond 
budgets.
    In fiscal year 2003, the Forest Service contributed to the 
county payment. The contribution was $385.1 million. That was 
based on the formula in Public Law 106-393. That is the average 
of the high 3 years 25-percent payment between 1986 and 1999. I 
also note that the actual 2003 25-percent payment would have 
been approximately $70.3 million in the absence of Public Law 
106-393.
    Mark, I have serious concern about the decline of Forest 
Service receipts. But this is not the time or place to discuss 
that. I want you to know that we are going to be having some 
hearings to try to analyze the problem at hand. I've been 
looking at a graph, and looking at the historic relationships, 
and they don't fit. And now the Forest Service has become 
increasingly dependent upon the general fund of our government, 
and that may be the way the country wants it; but, if so, we 
need to see what we can do to deal with it responsibly.
    As for finding offsets, please get your list of offsets 
from the Forest Service budget to us. I think that what Ron has 
suggested is critically important, that we work collectively 
together. That is also true of you, Chris, because our time is 
short as we try to resolve where we're going to be in relation 
to the funding of this, what I believe now, and I think most 
agree, critical law.
    Mark, I see your recommendations for section 2(c) of the 
bill will be dropped, because you indicated that it is not 
needed. My staff tells me that, after the passage of the 
original bill in 2000, several forests in at least two regions 
reduced their contribution to the 25-percent payment fund below 
the levels called for in the bill. They did this because they 
believed the Treasury would pick up the slack.
    Given that some of your people did that, what alternative 
policy have you promulgated, or will you promulgate, to ensure 
each unit contributes at least 25 percent of their gross 
receipts to help pay for Public Law 106-393? And in absence of 
such policy, can you give us a good reason that section 2, 
subsection (c) shouldn't be included in the bill?
    And I also see that you're interested in some changes in 
sections of S. 267 that call for audit reports of the title III 
project.
    So that's three questions there. If you could deal with 
those, I would appreciate it.
    Mr. Rey. First, it is our policy to follow the law, as it's 
written, in Public Law 106-393, to return all receipts to the 
National Forest Fund that are required. We have not been able 
to find any instance where a forest or a region has 
deliberately not followed the law as required. And, indeed, we 
have had three clean audits over the last 3 years, so, 
ostensibly, that sort of misappropriation of funds would have 
been discovered in those audit procedures.
    Assuming, for the sake of argument, that there was an error 
of that nature, it's an error that does not require a change in 
the statute. The statue is pretty clear that the money has to 
be put into the National Forest Fund; ergo, changing it is not 
required. We need to validate or confirm for ourselves that the 
information that you have is either correct or not correct. If 
it's correct, then we have to make sure that we enforce the 
law, as written.
    The second question is, why, in the face of some confusion 
over that, it's still not a good idea to amend the law, as you 
all have proposed in section 2(c). And I think the reason for 
that is, the way you've written it implies that the Secretary 
of the Treasury has to make a contemporaneous audit during the 
year to evaluate whether we, in fact, are complying; and then 
adjust accordingly, if we aren't. And the Secretary of the 
Treasury indicates to us that that's not something he's capable 
of doing within a calendar year.
    So I think the key here is, before we go about changing 
what, to us, is a pretty a clear requirement of law, let's 
ascertain whether, in fact, it hasn't been followed, or that's 
the case, and if it hasn't been followed, then let's do what 
needs to be done to remediate that, but let's not change what, 
to us, is a fairly clear directive, on its face.
    In terms of additional suggestions on title III, what the 
bill proposes is a separate Forest Service audit of title III 
expenditures, which are expenditures that the Forest Service 
has no control over, since they're conveyed directly to the 
counties.
    I think a better approach, if you want greater 
accountability for the expenditure of title III funds--and they 
are less accountable to the Federal Government now than title 
II funds--is to account for them in the same way we account for 
title II funds, which is to make the expenditure of title II 
funds subject to the approval--to the review and approval of a 
Resource Advisory Committee. That provides an independent 
entity to review the expenditure and, through the work of the 
Resource Advisory Committee and our aggregation of the data 
that they provide us, an ability to track how that money is 
spent. And I think that's far superior than sending the Forest 
Service off trying to audit county books, which I can assure 
you will not be well received in many counties in the country. 
And, probably, our accountants will be poorly received when 
they show up at the county seat for that purpose.
    Senator Craig. Thank you, Mark. My time is up. That last 
suggestion was probably a pretty good one.
    Also, I'm still concerned, and my staff, and you, and I 
will work together. I think that, in region one, we had some 
problems as it relates to receipts. We seem to have the 
evidence that needs to be effectively refuted by the agency, or 
I think my position stands.
    Thank you very much. Let me turn to my colleague, Ron 
Wyden.
    Senator Wyden. Well, thank you both, Mr. Kearney and Mr. 
Rey, and I appreciate all the constructive help in all of this. 
I want to think about that last suggestion you made, Mr. Rey, 
but it certainly sounds sensible to me, I mean, in terms of how 
we make sure that we get the most value for the dollar. So 
we'll definitely work with you on it.
    What I do want to talk about, though, is the next 60 hours, 
in terms of this program, because I think the next 60 hours--
and I know Senator Smith has a great interest in this, as 
well--the next 60 hours for this program are a big deal, 
because, between now and probably very late on Thursday night, 
that's when the budget is going to play out. And if we don't 
get this program in there, everything else is, sort of, uphill. 
There are certainly ways to do it, but it becomes much harder.
    What can you tell us, in terms of where we are right now, 
and particularly--what I'd like to do with my 5 minutes is I'd 
like your pledge today to say that you will work with the 
interested Members of this committee--and you've already got 
four of them here, and Senator Domenici and others--starting 
this afternoon, through the end of the budget process, so that 
we nail down these offsets. Because this is a program that 
works, and it would be, I think, a terrible thing to lose this 
because there's a fight about the offsets. The offsets, of 
course, are a big deal. I can think of a lot of offsets that 
Republicans would hate, and a lot of offsets the Democrats 
would hate. I don't want to see that be where this program 
goes.
    So, tell us where we are. And, particularly, can we have 
your pledge to work with the interested members of this 
committee, the chairs and the ranking members, both committee 
and subcommittee, and Senator Smith and others who are 
interested in this, so we can make sure the next 60 hours gets 
used well?
    Mr. Rey. Well, on the latter question first, of course you 
have our pledge. That's what we indicated in our testimony, 
that we would work with the committee to find offsets.
    In terms of where we are, I'm, I guess, at the same 
disadvantage that everyone else is, that I haven't seen the 
draft work product that the chair of the Budget Committee will 
shortly produce.
    Senator Wyden. What does the chair tell you about this 
program and any offsets?
    Mr. Rey. In our proposal, the program is partially offset 
already. The 2006 expenditures are already offset, since they 
are included in the budget baseline from previous years. And, 
as I understand it, the BLM portion of the program is also 
offset. So the ``find,'' if you will, is somewhat smaller than 
the entirety of the program. We're talking about finding 
offsets for the Forest Service component of the program for 
fiscal year 2007 and beyond, which is a little more than half 
of what the cost of the program is, if I recall correctly.
    I have not had any recent communications with the Budget 
committee. That is to say, within the last week or so. I 
understand, from communications prior to that time, that there 
was considerable support among some of the Members of the 
Budget committee for making sure that this program carried 
forward.
    Senator Wyden. How do you think that we ought to tackle 
this? Do you have some ideas for additional offsets?
    Mr. Rey. I have a couple, but I'd prefer to wait and see 
what the chairman's mark looks like, as it's developed, to see 
what kinds of offsets they have in mind.
    Senator Wyden. Who do you want us to work with at the 
Forest Service so that when I bring the tuna fish and we're 
sitting there over the next 60 hours trying to work this out, 
we know who we ought to be dealing with?
    Mr. Rey. It would be either myself or Dave Tenny, my 
assistant.
    Senator Wyden. Okay. And you've already basically said it, 
you'll give us the time we need, starting this afternoon, 
tonight, and through tomorrow and Thursday, so we can get this 
done.
    Mr. Rey. Correct.
    Senator Wyden. All right. I appreciate it. I may have some 
additional questions for you all, for the record. And Senator 
Bingaman has brought up issues I know he feels strongly about, 
and I want to work closely with him. Senator Smith is here. We 
have seen the value of this program; and out in Oregon people 
are talking who basically wouldn't show up in a room together, 
as a result of this law. So let's use our time this week to get 
this program off to a good start.
    Thank you, again, for all the cooperation you've shown us. 
This is a textbook case of how it ought to work, and we look 
forward to getting this done.
    Thank you, Mr. Chairman.
    Mr. Rey. Thank you, Senator.
    Senator Craig. Ron, thank you. I was planning to attend 
those meetings, until I found out you were only bringing tuna 
fish.
    Senator Wyden. Well, we'll have the Craig special.
    [Laughter.]
    Senator Craig. All right.
    Now let me turn to Senator Bingaman.
    Senator Bingaman. Thank you, again, Mr. Chairman.
    Again, I support the effort to move ahead with the 
legislation, and appreciate your willingness to look for 
offsets.
    I do have a question, Mr. Kearney, about the position that 
you're taking on another issue, which is not the subject of 
this hearing, and that's the Payment in Lieu of Taxes bill that 
I raised with you before. In September 2003, you testified then 
that ``The position''--this was speaking on behalf of the 
Department of the Interior--``Our position in the bill remains 
unchanged. The administration strongly supports PILT and RRS 
programs, and views them as a high priority. But the 
administration is opposed to the bill, because it would force 
the Federal Government to either raise taxes or cut into other 
programs.''
    You take that view on PILT, and you take a very different 
view on this county payments bill. I'd just be interested in 
your explanation of why the difference.
    Mr. Kearney. Senator, in the particular case of this 
legislation, there is clearly an issue with its cost in the 
current situation, and that's why we would be interested in 
working with the committee to address it through offsets.
    In the case of--and we have also had a clear and--statement 
of a commitment to addressing the PAYGO principles in 
conjunction with the budget.
    In terms of the PILT legislation, at that time, the issues 
then, as now, covered a great number of matters that did not 
allow us to easily address, in that context, an offset, and it 
was not part of the discussion at the time, in terms of 
offsets. And, in this particular case, there is a desire to 
attempt to identify offsets, as we indicated, and that's our 
position for it.
    Senator Bingaman. Well, I guess I don't really understand. 
You said that, in the case of the county payments bill, there's 
a desire to find offsets; in the case of PILT, there was not. 
And that's what I said. I was asking you why.
    Mr. Kearney. The PILT legislation is a discretionary 
program, and continues as a discretionary program. And so, 
therefore, the budget issues at question, in terms of its 
impacts, are of, as I stated, in terms of the various issues 
you have to address. In the case of the particular rural 
schools legislation, it was--established mandatory payment 
legislation that had a spending stream--you know, an offset 
that was established at the time. And, going forward, if it 
were to continue, it would be treated--it would have to be 
treated that way.
    So there are also different budgetary treatments for each 
of the pieces of legislation, in terms of the way they're 
treated in the budget.
    Senator Bingaman. Well, I certainly agree that there are 
different budgetary treatments. I still don't think that 
answers the question of why the administration supports one and 
opposes the other.
    But let me move on to this other aspect of the bill. 
Section 204 of the county payments legislation states, quote, 
``The Secretary shall ensure''--and that's the phrase it uses--
``shall ensure that not less than a certain percentage of the 
projects be implemented under separate contracts, as required 
by the Merchantable Materials Contracting Pilot Program.''
    Now, the data we've received from the Forest Service makes 
it appear that there's been no real effort to meet the 
requirements of that. Mr. Rey, maybe you're better equipped to 
respond to that. I believe the data shows that you haven't come 
close to meeting those requirements.
    Mr. Rey. I think the question of whether we're close to 
meeting those requirements has, in front of it, a 
misapprehension of what this program was going to be about. 
That misapprehension was that this program was going to result 
in counties' Resource Advisory Committees spending title II 
funds to fund commercial timber sales. Indeed, if you'll recall 
the rhetoric from 2000, many environmental groups were calling 
this bill ``Clearcuts for Kids.''
    Indeed, in the 5 years that have ensued, few, if any, 
commercial timber sales have been approved by county Resource 
Advisory Committees. So the opportunity to use this pilot 
project has been severely circumscribed by the fact that that 
misapprehension never came to be.
    In fact, there are only 100 of the 2,200--I think that's 
the number we're using now--projects that involve any 
commercial material at all. That's what the Forest Service data 
base would tell you. But that data base includes, as commercial 
material, anything that was sold for a price. So it includes, 
not only logs, but other products, like gravel, if a gravel 
deposit was discovered in the course of rehabilitating a road 
and there was some value to the gravel that was secondarily 
sold as part of the project.
    Of those hundred commercial projects, we've had six where 
the kind of material that was removed involved logs of a size 
that lent themselves to this independent sort yard. The balance 
that had any kind of fiber material associated with them at all 
were projects that involved the removal of low-value fiber for 
the use in biomass energy facilities, or other small-diameter 
materials that would have deteriorated very quickly had they 
been handled through the second transaction required by a 
separate sort yard.
    So if you were looking at this the way some groups were 
looking at it in 1999 and 2000, and assumed that a significant 
number of commercial timber sales would be planned for and paid 
for under title II, then this independent sort yard proposal 
would have been used a great deal more.
    If you look at the situation today, and the kinds of 
projects that are involved in the 2200 that have been approved, 
what you find is a very different story. And so far we've had 
six projects that involved enough volume of larger diameter 
material such that a separate sort yard was even feasible, 
given the material that had to be sold.
    Obviously, if you're working with small diameter material 
or material that's suitable only for biomass energy, you're not 
going to get many bidders if you pile it up someplace and say, 
``Come and buy it.''
    Senator Bingaman. My time is up, Mr. Chairman.
    Senator Craig. Thank you very much, Senator Bingaman.
    Now let me turn to our colleague from Oregon, Senator 
Smith. Gordon, we made opening statements. You can certainly do 
that, if you wish, and follow up with questions.
    Senator Smith. Mr. Chairman, why don't I just put it in the 
record?
    Senator Craig. Without objection, it'll become a part of 
the record. Please proceed.
    [The prepared statement of Senator Smith follows:]
   Prepared Statement of Hon. Gordon Smith, U.S. Senator From Oregon
    Mr. Chairman, I appreciate your willingness to hold this hearing 
today on reauthorization of the Secure Rural Schools and Community Self 
Determination Act. I am a cosponsor of the legislation before us today, 
and look forward to working with my colleagues and the Administration 
toward reauthorization.
    Over the past 15 years, there has been a crippling decline in the 
sale of federal timber, resulting in a corresponding decline in 
payments to counties. Between 1984 and 2004, for example, harvest on 
the Umpqua National Forest fell 99 percent. Total harvest across 
Oregon's national forests is only 7 percent of what it was in 1984.
    I wholeheartedly support efforts to rebuild the timber economy in 
my state. However, stability has yet to return to that sector of our 
economy. As we meet here, protesters in Southern Oregon are physically 
blocking the harvest of charred and rotting timber killed in the 
Biscuit Fire--nearly three years ago. I cannot consign the schools of 
Josephine County, or any other county in my state, to the outcomes of 
such antics or the now-obligatory legal battles. Unfortunately, forest 
fires and safety net payments are all that my counties can count on 
these days from public lands. From the drought we're in, we know that 
fires are coming this summer. I'd like to be as certain about county 
payments.
    I commend the Administration for recognizing the importance of this 
safety net--not only to states and counties, but also to the health of 
our public lands. I believe it is essential to marry County Payments 
projects with the National Fire. Plan and the Healthy Forests 
Restoration Act. In doing so, we can leverage new sources of funds 
toward collaborative projects.
    Thank you again Mr. Chairman for your work and leadership.

    Senator Smith. Gentlemen, thank you for being here. And I 
truly thank you for the very constructive approach you're 
taking to this issue and recognizing how important county 
payments are to States and counties and, I believe, even your 
forest health projects. I wonder if you can tell me what you're 
doing to marry county payments projects with National Fire Plan 
and the Healthy Forest Initiative efforts?
    Mr. Rey. I think the short answer to that is, a lot of 
Resource Advisory Committees are approving title II projects 
that involve fuel reduction work on both Federal and, to some 
extent, adjacent non-Federal lands. Additionally, counties have 
been using title III funds more and more frequently to both do 
fuel reduction work on non-Federal lands, but also to 
underwrite the cost of the development of community-based fire 
plans.
    So the money that's being spent in title II and title III 
has been integrated, increasingly over the last 18 months, with 
the Healthy Forest Initiative and the Healthy Forest 
Restoration Act and, prior to that, programs under the National 
Fire Plan.
    Mr. Kearney. And that's also the case with BLM, 
particularly in the case of the title II projects.
    Senator Smith. Great. That's very encouraging. And I know, 
as we look toward finding that right balance between forest 
protection and health efforts, with commercial harvests, and 
figuring out how to keep our schools open and our counties 
funded, you all will continue to pursue these opportunities to 
marry these policies, because I really think it's a win-win 
opportunity.
    I'm also very encouraged to hear both of you this morning, 
I believe, indicate that, in terms of the need for offsets in 
the budget, that you already have identified lots of offsets 
within your Departments. I wonder, as a percentage of the total 
budget for county payments, how much would you say you have 
offsets for, at this point?
    Mr. Rey. I think in the 2006 budget proposal, just under 
half of the program is offset.
    Senator Smith. Already.
    Mr. Rey. Already.
    Senator Smith. And you might find some more, but----
    Mr. Rey. That's what we committed, to look at--to look for 
with the Budget committee.
    Senator Smith. But, clearly, we need to go, as well, and 
look for more offsets that we can find in the larger budgetary 
scheme.
    Mr. Rey. That's correct.
    Senator Smith. Same with BLM?
    Mr. Kearney. The same with BLM, yes.
    Senator Smith. Mark, I note, in the Associated Press today, 
that ten people were arrested in Oregon for protesting the 
lifting of the Ninth Circuit injunction on harvesting on the 
Biscuit Fire area. Do you have any update on that? I mean, 
clearly if the Ninth Circuit, of all places, would lift an 
injunction, it seems to me that that suggests that the Forest 
Service is following all the environmental laws appropriate to 
this sale.
    Mr. Rey. On the face of it, that's what either denying the 
grant or, thereafter, lifting an injunction would mean. So 
those sales are proceeding.
    Senator Smith. Any other update that you have on that?
    Mr. Rey. I haven't heard what's happening out there today 
yet.
    Senator Smith. Okay. Well, hopefully it's peaceful and 
people are exercising their rights without threatening harm to 
any person on either side of this issue.
    Mr. Rey. So far, our understanding is that that's been the 
case.
    Senator Smith. Thank you very much, Mr. Chairman.
    Senator Craig. Gordon, thank you very much.
    Mark, you were visiting with Senator Bingaman about sort 
yards. Is this sort yard policy experiment one that the Forest 
Service is still seriously pursuing? It was something the 
Forest Service, during the time we were crafting this 
legislation was quite adamant in support of. And so, my 
question is, If you're still pursuing it--if so, why? And if 
not, why not?
    Mr. Rey. Well, we're pursuing it to the extent that the 
opportunity presents itself through the projects that the 
Resource Advisory Committees approve. Where there are projects 
that are approved by the Resource Advisory Committees that 
allow themselves the opportunity for the use of a sort yard, 
we'll meet the requirements of the statute. So far, that's been 
a problem, because not very many of the projects provide that 
opportunity.
    Senator Craig. In prior discussions, and at the time we 
were formulating the Act originally, was not the sort yard 
concept tied, though, with other commercially valuable timber 
sales?
    Mr. Rey. As I said in response to Senator Bingaman, I think 
that the misapprehension associated with placing the sort yard 
provision into the original Act was that the county Resource 
Advisory Committees would approve and fund a significant number 
of commercial timber sales. And that has not been the case.
    Senator Craig. Okay.
    Mr. Rey. I think, in anticipation of that, the discussion 
around the sort yard proposal revolved around the proposition 
that this would be an interesting experiment to try on a pilot 
project basis, to see how it worked. And it may be, and it may 
still be, an interesting experiment to try. And we are, in 
fact, trying it with half a dozen or so projects. But we 
haven't had enough projects that fit that general profile to 
allow us to try it in a more robust test.
    Senator Craig. Okay.
    Mark, I have another series of questions I will submit for 
the record, because I have several I want to ask of Chris.
    This past Friday, the agency announced a plan to pursue 
independent third party certification on six national forests. 
I'm going to submit to you a series of questions on that. As we 
know, large private forest companies and others have been 
pursuing this avenue of certification as it relates to 
environmental standards and all of that.
    So I'm not going to ask you those questions today. I think 
it is important for this committee to pursue with the agency to 
see what your plans are in that area. So I thank you for that.
    Mr. Rey. Okay. Let me add one clarification to that, and 
then we can have a dialog subsequently.
    Senator Craig. All right.
    Mr. Rey. The pilot project we announced on Friday will 
likely not result in the certification of six forests. What 
will more likely result is a comparison between what we do and 
what is required for certification, so that we can look at the 
differences as they exist. Now, if there is no difference, 
then, theoretically, those forests could be certified. But 
that's not our primary objective. Our objective is to actually 
look at what we're going to do under our new environmental 
management system and see how that squares up with the two 
major certification systems that exist internationally today.
    Senator Craig. Well, I think it will be a valuable 
analysis. We'll look forward to working with you on it, and 
understanding it as we proceed. Thank you very much, and 
appreciate you being here this morning.
    Chris, on section 2(e), you've suggested that we meet the 
goals of the pilot program through stewardship contracting. 
Could you discuss that a little more and explain how that might 
be done, from your perspective or the Department's perspective?
    Mr. Kearney. Sure, Senator.
    It's another, I think, valuable way to achieve what's 
trying to be done here. The pilot program calls for 50 percent 
of the contracts that include the material to include a service 
contract to do the logging and a separate contract to sell the 
timber. In the case of stewardship contracting, we generally 
use one contractor to do the logging, remove the material, and 
then sell the material in order to offset the costs of that. 
And that would be the way we would carry forward here. In fact, 
three of the BLM's projects under the act that included 
merchantable material have a separate contract for sale of the 
material. So the stewardship contracting process is an 
effective way to achieve the--carrying out what you're trying 
to achieve there.
    Senator Craig. I see that both Secretaries have expressed 
concern about having to monitor title III projects. Given that 
we have provided over 40 million annually in title III 
projects, what type of oversight do you suggest the Federal 
Government provide to ensure these funds are expended in the 
manner the law prescribes? And who, other than anybody but the 
Department, do you suggest we task with the duty?
    Mr. Kearney. Well, this goes much to what Mr. Rey said 
earlier, in terms of----
    Senator Craig. Well, I wanted to see if you both were on a 
similar sheet.
    [Laughter.]
    Mr. Kearney. My answer is the same as Mr. Rey's in this 
particular case. There is certainly the issue with respect to 
the concern about the Secretary of Treasury being able to 
monitor this, and how they've advised us. And so, we'd 
certainly be happy to work with the committee to try to find a 
way to clarify the way the language is described and to get at 
the underlying issue and concern that you have, Senator.
    Senator Craig. Then you are of the same mind, that if the 
Federal Government arrives at the steps of the county 
courthouse and says, ``We're the Government. We're here to 
audit you,'' there might be pushback at the county level?
    Mr. Kearney. Without question, we are of that view, sir, 
yes.
    Senator Craig. I think you're probably right.
    All right. I see that you have coordinated your testimony 
on funding S. 267 with the Forest Service. And, obviously, 
we've been zeroing in on Mr. Rey about that. The annual budget 
of each of the BLM districts and the annual revenues produced 
on each district, we would need that information, if you can do 
that.
    Mr. Kearney. We'd be happy to provide that for the record, 
sir.
    Senator Craig. And a list of offsets from the BLM budget to 
pay for the 100 million that the BLM should be contributing to 
help pay for this bill.
    Mr. Kearney. We're certainly happy to look into that for 
you, as well.
    Senator Craig. Okay.
    Lastly, on S. 213, the Rio Arriba conveyance, if you can't 
get the NEPA requirement completed within the 1 year, how long 
do you need?
    Mr. Kearney. Well, Senator, in the case of the preparation 
of NEPA documents, with scoping and EA, that takes the better 
part of a year. And so, we would have a sense, at the 
conclusion of that process, how long. It would be inappropriate 
for us to estimate now how long that might take, but we'd 
certainly have a better sense once the EA process is complete.
    Senator Craig. Okay.
    Well, gentlemen, thank you both. We have work to do in the 
next week. And we appreciate your cooperation and willingness 
to work with us on a program that I think certainly this 
committee and those of us in areas of the Nation where we've 
seen this program at work feel that it has positive values and 
needs to be continued.
    Thank you much.
    Mr. Kearney. Thank you, Senator.
    Mr. Rey. Thank you.
    Senator Craig. Now let me invite panel 2 to the table, 
Michael Francis, Wilderness Society, Washington, D.C., and 
Robert Douglas, superintendent, Tehama County Schools, Red 
Bluff, California.
    Mike, again, welcome before the committee, and please 
proceed.

  STATEMENT OF MICHAEL A. FRANCIS, DIRECTOR, NATIONAL FORESTS 
                PROGRAM, THE WILDERNESS SOCIETY

    Mr. Francis. Thank you, Mr. Chairman, members of the 
subcommittee. I want to thank you for the opportunity to 
testify on S. 267, Secure Rural Schools and Community Self-
Determination Reauthorization Act of 2005. That is a mouthful.
    The Wilderness Society concurs with the conclusion of a 
recent study conducted by Boise State University that this 
legislation is effectively meeting the stated purposes. 
Payments have been stabilized, investment of Federal lands have 
increased, and cooperative relationships have improved since 
the passage of this Act.
    The Wilderness Society supports the reauthorization of the 
law, provided it is a clean bill, with no changes except those 
housekeeping type of changes that are needed. We view, as an 
example of housekeeping changes, section 2(d) of the bill 
allows for reappointment and length of service of members of 
the committee--Resource Advisory Committees to be extended. And 
we think it addresses a need that has been identified by both 
the conservationists and the RAC members for their better 
operation.
    The Wilderness Society, as you have already noted, has one 
major concern with S. 267. It is the elimination of the 
Merchantable Materials Contracting Pilot Program in title II. 
This change is problematic for three main reasons. First, it is 
premature to eliminate the pilot program. The program has not 
yet had a chance to yield results that make an informed 
judgment on the program. Second, the new language eliminates a 
requirement of current law that certain percentage of 
merchantable tree projects be conducted to separate contract 
for logging and selling of the wood. Third, giving RACs an 
added responsibility of requesting a pilot program would inject 
new and maybe needless controversy into the title II process.
    As members of the subcommittee know, the Wilderness Society 
was originally skeptical of title II when the law was being 
written, believing that it could promote unsustainable 
development on national forests. However, based on about 6 
months of research, the Wilderness Society thinks the Title's 
projects have been successful, so far, in achieving the 
resource stewardship objectives established under the law. We 
believe the success of title II, along with a lack of 
controversy about the projects, is due, in part, to the pilot 
program, which creates incentives for the RACs to recommend 
projects with the goal of conservation and restoration.
    Also, we believe the program facilitates decisionmaking 
between the timber industry and the environmentalists, 
especially on projects that have originally been difficult to 
prove, such as fuels reduction projects.
    Mr. Chairman, by all accounts, the Resource Advisory 
Committee process has been very successful in bringing together 
community members with divergent, strongly held views, helping 
them interact and understand and accommodate each other's needs 
and approaches, and helping them to work together to achieve 
agreement on projects proposals that benefit the community, as 
a whole. This is a very considerably--considerable achievement, 
and should not be lost.
    However, the proposed changes in the law--removing the 
pilot program, and the separate contracting percentage 
requirements--threatens to sow dissension in the ranks. 
Removing the break on the pilot--the break of the pilot program 
is likely to be perceived by some as a signal from Congress 
that it finds stewardship and restoration components of title 
II to be less than compelling.
    Given the voting structure of the RACs, wherein the 
majority of the members of each of the three recognized 
categories of community of interest that's required for project 
approval, the proposed changes in the law could polarize RAC 
members, undermine the law's most impressive accomplishment, 
and significantly hinder the program in the future.
    The Wilderness Society strongly recommends that Congress 
retain the current direction and definition of the Merchantable 
Materials Pilot Program.
    Mr. Chairman, the Wilderness Society supports a clean 
reauthorization of the bill. We stand ready to work with the 
committee.
    Thank you.
    [The prepared statement of Mr. Francis follows:]
 Prepared Statement of Michael A. Francis, Director, National Forests 
               Program, The Wilderness Society, on S. 267
    Mr. Chairman and members of the Subcommittee, I want to thank you 
for this opportunity to testify on S. 267--the Secure Rural Schools and 
Community Self Determination Reauthorization Act of 2005. P.L. 106-393 
has proven to be successful in stabilizing payments to rural school 
systems and county governments and funding many environmentally 
beneficial projects on national forests. We commend the members of this 
Committee who helped to craft this law.
    The Wilderness Society concurs with the conclusion of a recent 
study of P.L. 106-393 conducted by Boise State University that the 
legislation is effectively meeting its stated purposes. Payments have 
been stabilized, investments in Federal lands have increased, and 
cooperative relationships have improved since passage of the Act. More 
than 85% of the eligible counties have opted to participate in the 
guaranteed payments program established under Title I. Title II of the 
legislation has funded hundreds of environmentally beneficial and non-
controversial resource projects on the National Forests. Funding 
through Title III has allowed many counties to begin developing 
community fire protection plans as well as perform other important 
government services. The Boise State study found overwhelming support 
for renewal of the legislation among Resource Advisory Committee 
members and county officials that oversee use of the Title II and III 
funds.
    The Wilderness Society supports reauthorization of the county 
payments law, provided that it is a clean bill, with no changes except 
for housekeeping provisions that are clearly necessary to ensure the 
continued success of the program. Section 2(d) of the bill apparently 
removes the Secretary's current explicit role in reappointing members 
of a Resource Advisory Committee (RAC) and removes the prohibition on 
non-Agriculture Department employees serving more than six consecutive 
years on an advisory committee. These proposed changes address a need 
identified by conservationists and other members of the RACs to enable 
them to continue their work.
    The Wilderness Society's one major concern with S. 267, as 
introduced is the elimination of the merchantable materials contracting 
pilot program in Title II. Under Section 204(e)(3) of P.L. 106-393 the 
Secretary ``shall'' establish a pilot program for implementing Title II 
projects involving the ``sale'' of merchantable trees. The pilot 
program required that increasing proportions--up to 50% by 2006--of 
such projects, on a national basis, be implemented using separate 
contracts for (a) the harvesting, and (b) the sale, of such material, 
commonly known as ``separating the log from the logger.''
    Under the proposed language in S. 267, the Secretary ``may'' 
establish a pilot program in response to a request from a RAC to 
establish such a program for the purpose of implementing a project 
proposed by that RAC.
    This change is problematic for three main reasons.
    First, it is premature to eliminate the pilot program: the program 
has not had a chance to yield enough results to make an informed 
judgment about the usefulness of separate contracts. The Forest 
Service's written response to Senator Bingaman's question at this 
Subcommittee's February 8th hearing that less than seven percent of the 
1300 projects under Title II had any merchantable materials associated 
with them may indicate that the pilot program is helping to deter 
federal land managers from using Title II funds to conduct potentially 
controversial and inappropriate logging projects. If so, this is a very 
salutary effect.
    Second, the new language eliminates the current requirement in Sec. 
204(e)(3)(B) that a certain percentage of merchantable tree projects be 
conducted with separate contracts for logging and selling the wood. The 
federal land management agency would have full discretion to deny any 
request from a RAC.
    Third, giving RACs the added responsibility of requesting a pilot 
program would inject new and needless controversy into the Title II 
process. The current RAC decision-making process requires all three 
subcommittees--industry, environmental, and government--to approve any 
projects. Under the proposed change, a request by the environmental 
subcommittee members for use of separate contracts on a particular 
project could be vetoed by either the industry or government 
subcommittees. That, in turn, could compel the environmental members to 
veto a project that they otherwise might have approved under the 
current law.
                                title ii
    The Wilderness Society was originally skeptical of Title II when 
P.L. 106-393 was being written, believing it could promote 
unsustainable development of national forests; however, based on our 
research, Title II projects have been successful so far in achieving 
the resource stewardship objectives established under the law.
    We believe that the success of these Title II projects, along with 
the lack of controversy about them, is due in part to the pilot 
program, which creates incentives for the RACs to recommend projects 
with the goals of conservation and restoration. Title II projects that 
The Wilderness Society has reviewed implement stewardship-type 
practices which benefit forests, as well as improve the overall health 
of the land. The following are a few examples of projects that we have 
examined:

  <bullet> Late Successional Reserve Enhancement, Gifford Pinchot 
        National Forest, Washington (2004): This project involved pre-
        commercial thinning located in a Late Successional Reserve, and 
        aimed to accelerate the development of late-successional 
        conifer habitat to benefit species dependent on this 
        environment.
  <bullet> Young Stand Density Management, McKenzie River RD, Mount 
        Hood and Willamette National Forests, Oregon (2004): The 
        project thinned young stands in order to maintain stand health, 
        enhance species diversity, and provide a future source of large 
        woody debris and shade for streams.
  <bullet> North Shore Meadow Restoration, Mount Hood and Willamette 
        National Forests, Oregon (2004): This project restored an area 
        that had been degraded by an invasion of noxious weeds, conifer 
        encroachment, loss of Oregon white oaks, and construction and 
        ongoing maintenance of power lines.
  <bullet> Chewaucan Watershed Monitoring, Fremont-Winema National 
        Forest, Oregon (2002-2004): A watershed restoration and 
        monitoring program for the Lakeview Federal Stewardship Unit in 
        the Fremont National Forest was developed and supported by a 
        diverse collaborative group including The Wilderness Society. 
        The monitoring project employs a crew of eight students from 
        Lake County, supervised by a high school science teacher and 
        expert soil scientist, to gauge the ecological health of the 
        Chewaucan watershed. This kind of scientific monitoring is 
        essential to build trust and develop management plans that are 
        based on good resource data and sound science.
  <bullet> Ishi Wilderness/Mill Creek Watershed Tehama County, 
        California: This project removed feral cattle from the 
        watershed, by herding and fencing. The goals of removing the 
        cattle were to improve anadromous fish habitat, seeps and 
        springs, heritage resource sites, and hiking trails which were 
        damaged and eroded. In the project's submission form, it states 
        that it will improve and restore 77,290 acres of soil 
        productivity, and 14 miles of stream/river and fish habitat.
                  merchantable materials pilot program
    There does not seem to be a clear and compelling rationale for 
changing the pilot program, especially when considering The Wilderness 
Society's findings, and a preliminary status report from the Government 
Accountability Office (GAO).
    The Wilderness Society's review of Title II projects and pilot 
program projects has revealed significant support from the conservation 
community where the pilot program projects we reviewed are located (all 
of them in Oregon and California). It is crucial to recognize and value 
the opinions of people involved in project implementation. RAC members 
representing either local, regional, or national environmental groups 
are in strong support of keeping the pilot program as a requirement in 
the new law. They believe that the program facilitates decision making 
between the timber industry and environmentalists, especially on 
projects that would have originally been difficult to approve (i.e. 
fuels reductions). In addition, they feel that without the program 
there would be greater emphasis on commercial values instead of 
conservation, making it more complicated to achieve any outcomes 
authorized by Title II. For example, the RACs may be presented with 
projects that would thin large natural stands that are economically 
more attractive than the plantations of smaller trees now being 
thinned. Conservationists strongly believe that the current 
merchantable materials pilot program will be essential to the continued 
success of Title II.
    An interim status report from the GAO in 2003 on the merchantable 
materials pilot program stated that out of the approximately 1,300 
forest-related projects at the time, 13 were expected to generate 
merchantable material, and six of those were to be conducted within the 
pilot program. The report stated that none of those six projects had 
been implemented at that time. However, our research shows that now one 
project has successfully been completed, and others will be completed 
by the end of this year. Two projects that were listed on the GAO 2003 
report as ``Density Reduction-Chetco'' and ``Westside Small Tree-
Chetco'' were submitted as two separate projects, and then combined 
into one: ``Small Tree Treatment Project #111056''. The status reports 
of these early projects are as follows (the project names have been 
updated since the GAO report):

  <bullet> Small Tree Treatment Project 111056: The project is 28% 
        completed, and consists of cutting pre-commercial and 
        commercial (merchantable) size trees. A contract for this 
        project was awarded two years ago (June FY03), but work was not 
        started due to a few reasons: there was a forest fire 
        precaution restriction, the contractor was unavailable, and 
        then the area was too wet to operate on. The actual work by the 
        contractor started the week of 2/22/05. The contract terminates 
        at the end of May 2005, and the project is expected to be 
        completed at that time.
  <bullet> Boaz Forest Health and Small Diameter Utilization #OR-116-
        03-03: This project is approximately 30-40% complete, with 3 
        out of 9 units completed. The Medford BLM stated the project 
        will be completed by this year, and that this project is an 
        example they use for other projects.
  <bullet> West Side Small Tree Treatment Project 111335: The status of 
        this project is uncertain, due to the non-merchantable material 
        this project is producing. The original intent of the project 
        was to thin smaller trees, and make a fuel break along the road 
        system. The byproduct was going to be made into mulch to leave 
        on the ground. Miscommunication within the Forest Service led 
        to this discrepancy, since this project was originally marked 
        as a pilot program project.
  <bullet> Waters Creek Project 112007: The mechanical work on this 
        project was completed in April 2004, and the material was sold 
        as of 2/16/05. The Siskiyou National Forest believes this 
        project was a success.
  <bullet> Small Tree Treatment Project 114333: This project is only 
        20% completed because there was a pullback of FY03 Forest 
        Service funds necessary to implement the project (due to a 
        redirection of funding to wildfire response). The project is 
        currently being implemented, and the contractor is operating, 
        with completion expected by fall 2005.

    Mr. Chairman, as a matter of principle The Wilderness Society is 
concerned that the Forest Service has largely ignored the congressional 
directive to establish and monitor a pilot program. Section 204(e)(3) 
directs the Forest Service to establish a pilot program for the purpose 
of assuring that, for Title II projects generating merchantable 
material, a graduated percentage of such projects would be implemented 
using separate contracts for (a) the harvesting, and (b) the selling, 
of the material. The intent of the sponsors was to establish an 
important safeguard insulating Title II ecological restoration projects 
from economic incentives that could cause them to become ecologically 
damaging. Using separate contracts removes the profit motive from the 
design and placement of the project and helps retain the proper focus 
on restoration.
    The national office of the Forest Service simply never set up such 
a pilot program, and has failed to assure compliance with the law's 
separate contracting requirements. The agency's written response to 
Senator Bingaman's query shows that of 88 Title II projects generating 
``merchantable materials,'' only six were implemented using separate 
contracting. Further, the Forest Service seems not to have 
institutionalized consistent criteria for the term ``merchantable,'' 
thus making it difficult to evaluate on a region-wide basis which 
projects have generated only incidental ``merchantable'' materials, and 
which generated saw-timber or other non-incidental materials, or in 
what amounts. But even allowing for projects generating only incidental 
materials, the agency seems to have fallen far short of implementing 
the law.
                     the role of separate contracts
    When a project is implemented utilizing a single contractor for 
removal and sale of merchantable trees, the economics of the project 
are tied to the value of the trees on the stump. This situation--
present in the normal timber sale--inevitably militates towards pushing 
the project into areas of higher commercial value and into potential 
conflict with ecological values.
    But with separate contracts, the harvester has no incentive to 
remove materials of higher commercial value, since he will not be 
realizing any of that value, and the project can thus focus on its 
proper restoration mission. The existing law's percentage requirement 
is a brake, allowing half of all such projects to be implemented with a 
single contract, but preventing the program from lurching onto a 
largely commercial course.
    Pressures to commercialize are real, and present. One Title II 
project on Idaho's Clearwater National Forest proposes to use (or has 
used) Title II funds to pay for the cruises of two planned commercial 
timber sales, totaling 22-27 million board feet. These are substantial 
commercial sales. Paying for them with Title II funding is out of step 
with the law's purposes of maintaining existing infrastructure, 
enhancing forest ecosystems, and restoring and improving land health 
and water quality. See Sec. 2(b)(2). That this project was approved by 
the Forest Service unfortunately reinforces the perception, established 
by the agency's failure to initiate a pilot program or enforce separate 
contracting, that the agency has not always taken the congressional 
direction seriously.
             the achievement of the racs should not be lost
    By all accounts, the Resource Advisory Committee process has been 
very successful in bringing together community members with divergent, 
strongly held views; helping them interact with, understand and 
accommodate each other's needs and approaches; and helping them work 
together to achieve agreement on project proposals that benefit the 
community as a whole. This is a very considerable achievement, and 
should not be lost.
    However, the proposed changes in the law removing the pilot program 
and separate contracting percentage requirements threaten to sow 
dissension in the RACs. Removing the brake of separate contracting is 
likely to be perceived by some as a signal from Congress that it finds 
the stewardship and restoration component of Title II to be less than 
compelling. It is likely to increase proposals for projects generating 
merchantable materials--that is, for projects whose community benefit 
is more closely tied to cutting and selling saw-timber. And because of 
their perceived economic benefits, such proposals will be strongly 
supported by some RAC members and by some in local communities.
    On the other hand, such project proposals are likely to be even 
more strongly opposed by RAC members for whom conservation is a more 
important goal. As we discussed above, given the voting structure of 
the RACs, wherein a majority of the members of each of the three 
recognized categories of community interest is required for project 
approval, the proposed change in the law could polarize RAC members, 
undermine the law's most impressive accomplishment, and significantly 
hinder the program from going forward.
                               conclusion
    To address these concerns, S. 267 should be amended to restart the 
required merchantable materials pilot program, with a gradual increase 
during the reauthorization period in the proportion of merchantable 
materials projects using separate contracts. Congress should retain the 
current direction and definition of the merchantable materials pilot 
program. The Wilderness Society is ready to work with the Subcommittee 
to achieve the objectives of the program of restricting the potential 
abuse of commercial timber sales under Title II while not hindering 
fuel reduction service contracts and restoration contracts with 
incidental merchantable material, and other stewardship-type efforts.
    The Wilderness Society strongly recommends that the current 
merchantable materials pilot program be retained in the 
reauthorization.
    In closing, Mr. Chairman and members of the Subcommittee, The 
Wilderness Society supports a clean reauthorization of the Secure Rural 
Schools and Community Self Determination Act (P.L. 106-393). We stand 
ready to work with the Subcommittee on our strong concerns about 
certain provisions of S. 267.

    Senator Craig. Mike, thank you very much for that 
testimony.
    Now, Bob, we'll turn to you. Please proceed.

 STATEMENT OF BOB DOUGLAS, PRESIDENT, NATIONAL FOREST COUNTIES 
                     AND SCHOOLS COALITION

    Mr. Douglas. Thank you for the invitation to testify in 
support of S. 267. As you mentioned, my name is Bob Douglas. 
I'm the elected county superintendent of schools in Tehama 
County, California.
    Since 1998, I've served as president of the National Forest 
Counties and Schools Coalition, a broad-based umbrella 
organization of over 1,100 organizations nationwide. A list of 
our membership is appended for your information.
    Our coalition has worked closely with sponsors and 
cosponsors of the legislation. We are strongly supportive of S. 
267, as it is currently presented. We believe the strong record 
of success established during the first 4 years of implementing 
Public Law 106-393 is a solid reason for Congress to extend 
this statute. This bill is a public policy success story.
    The county and schools safety net under title I has 
resulted in the restoration and retention of programs in public 
schools all across rural America. From 1986 through 1999, rural 
forest schools were devastated by a decline of over 70 percent 
in forest reserve funding. Teachers were laid off. Counselors, 
nurses, music and art programs, field trips, elective programs, 
sports, and extracurricular programs were curtailed or 
eliminated. Some schools were forced to move to reduced 
instructional days or weeks, and some small isolated schools 
were actually closed.
    For the last 4 years, title I funds, under Public Law 106-
393, have restored many of those programs and prevented the 
closure of isolated schools that would not have survived 
without this support.
    Likewise, the title I funds provided to counties for road 
infrastructure has allowed them to address the substantial 
maintenance and construction backlog that was created during 
1986 through 1999, as well. County roads and national forest 
areas are under increased user pressure as urban and suburban 
populations expand and seek greater recreation opportunities.
    All of this increased use is creating an ever expanding 
demand for winter snow removal, road and bridge maintenance, 
and new road construction. I can assure you that the title I 
funds for the support of county roads in the last 4 years has 
been put to good use. Without the continuing support of title 
I, the snow removal and road and bridge maintenance shortfalls 
of the 1980's and 1990's will return.
    In summary, I would submit that title I of Public Law 106-
393 has completely fulfilled its objectives; and the need for 
continuing this support is even greater in the next 7 years, as 
receipts have now declined from 70 percent to 87 percent or 
greater of their historic levels in the 1986 through 1990 
level.
    Title II of Public Law 106-393, however, is certainly the 
most exemplary and revolutionary contribution of this Act. This 
was a bold land management initiative. Today, we have 59 active 
Resource Advisory Committees, representing over 150 of our 
largest forest counties nationally. These RACs have invested 
$48.1 million in title II projects on Federal lands in 2004. To 
date, these RACs have, through consensus-based decisionmaking, 
approved 2,000 projects to improve watersheds, wildlife 
habitat, and reduce the risk of catastrophic fire. 
Simultaneously, they've created a substantial number of jobs.
    Finally, title II has reduced forest management gridlock 
through its decisionmaking process. As I stated, over 2,000 
projects have been approved. To date, no Resource Advisory 
Committee has disbanded or melted down due to unresolved 
conflict. Even more impressive is the fact that, to date, no 
title II project has been appealed, nor litigated.
    In our view, Resource Advisory Committees are creating a 
new foundation and body of knowledge that will support the next 
generation of public land management initiatives. An indicator 
of this is the fact that, in each year of implementation, the 
RACs are bringing more partners, more funding sources, and more 
creative ideas to the table. Today, over 30 percent of RAC 
project funding in some parts of our country is coming from 
outside partners. The RAC projects are generally becoming more 
complex, treating larger areas of our national forest, and 
involving larger numbers of partners.
    Title III has, likewise, provided funds to counties which 
have been invested to great advantage. Many forest counties 
have been able to offset the rising cost of search-and-rescue 
work on Federal lands. A number of counties with rapidly 
expanding populations are using title III funds to purchase 
conservation easements to complement their efforts to conserve 
green spaces and open spaces through their county general 
plans.
    And in fire prevention, a large number of our counties are 
investing their funds in fire prevention strategies and 
educating citizens in safe actions.
    Mark Rey mentioned that our RACs are working with our 
counties to develop title III funding, and are also working 
with title II funding to fund the implementation of these 
projects.
    And, finally, in title III, I would mention forest-related 
education programs, because one of the finest examples was in 
the room with us today.
    Basically, in summary, I would say that Public Law 106-393 
is a remarkable success story. It represents public policy at 
its best. It is achieving its congressionally intended 
objectives of restoring essential rural school and county road 
infrastructures, creating essential forest health improving 
projects through title II, and educating and protecting our 
public, and conserving open space in our growing forest 
counties.
    The legacy and accomplishment of Public Law 106-393 over 
the last 4 years has been positive and substantial. We believe, 
the National Forest Counties and Schools Coalition believes, 
that this law deserves to be, and should be, extended so it can 
continue to benefit the citizens of our forest counties, our 
public schools, and our national forests.
    Thank you for the opportunity, Mr. Chairman.
    [The prepared statement of Mr. Douglas follows:]
Prepared Statement of Bob Douglas, President, National Forest Counties 
                         and Schools Coalition
    Thank you for the invitation to testify in support of Senate Bill 
267 to reauthorize the Secure Rural Schools and Community Self-
Determination Act of 2000. My name is Bob Douglas and I am the elected 
County Superintendent of Schools in Tehama County, California. Since 
1998, I have also served as the President of the National Forest 
Counties and Schools Coalition. The Coalition is a broad-based umbrella 
organization of over 1,100 organizations nationwide. A list of the 
member organizations is appended for your information. As you can see, 
we represent 37 states and a wide array of organizations representing 
county and municipal governments, school districts, school 
administrators, teachers, business and industry, local, state, and 
national Chambers of Commerce, labor unions, forest user groups, and 
conservation organizations. We represent the interests of 750 forest 
counties nationwide and over 4,400 school districts. Our Coalition has 
worked closely with sponsors and co-sponsors of this legislation prior 
to its introduction, and we are strongly supportive of S. 267 as 
presented. We believe that the strong record of success established 
during the first four years of implementing P.L. 106-393, is a solid 
reason for Congress to extend this statute. Few laws can present a more 
positive record of achievement in their initial years.
    I last appeared as a witness before this Committee in October of 
1999 as you were considering the Secure Rural Schools and Communities 
Self-Determination Act of 2000. I think it is safe to say that none of 
us, including myself, envisioned the level of success that was to be 
achieved by P.L. 106-393 over the next four years. P.L. 106-393 has in 
all ways surpassed our expectations.
    The reasons that our Coalition supported the enactment of the 
Secure Rural Schools and Community Self-Determination Act of 2000 were:

    1. To restore the historic 25% forest reserve payments to county 
schools and county governments for roads. (To meet the federal 
obligation under the 1908 Forest Reserve Act to support county roads 
and schools as essential infrastructures.)
    2. To reduce political gridlock and forest management at the local 
level by involving stakeholders in the active management of National 
Forest lands.
    3. To generate local employment through the creation of forest 
health improvement projects.
    4. To improve the health of our National Forests through active 
management.

    On all counts, P.L. 106-393 is a public success story.
    The county and school safety net under Title I of P.L. 106-393 has 
resulted in the restoration and retention of programs in rural schools 
across the United States. From 1986 through 1999, rural forest schools 
were devastated by a free fall reduction of over 70% in Forest Reserve 
funding. Teachers were laid off, counselors, nurses, music and art 
programs, field trips, elective programs, sports, and extracurricular 
programs were curtailed and/or eliminated. Some schools were forced to 
move to reduced instructional days or weeks, and some small isolated 
schools were even closed. For the last four years Title I funds under 
P.L. 106-393 have restored many of those programs and prevented the 
closure of isolated schools that would not have survived without this 
support. From a rural school administrators viewpoint, Title I funding 
and its programmatic impact has been enormously beneficial.
    Likewise, as I communicate with county commissioners and county 
engineers responsible for road and bridge construction and maintenance, 
I am repeatedly told that the Title I funds provided to counties has 
allowed them to address the substantial maintenance and construction 
backlog created during the 1986 through 1999 period of plummeting 25% 
Forest Reserve payments. County roads in National Forest areas are 
under increased user pressure as urban and suburban populations expand 
and seek more recreational opportunities. All of this increased use is 
creating an ever expanding demand for winter snow removal, road and 
bridge maintenance, and new road construction. Title I funds for the 
support of county roads has been put to good use. As a school 
administrator for 39 years in forest counties, I can tell you that 
timely and dependable snow removal is a serious concern for parents, 
school administrators, school board members, and bus drivers. I recall 
stories from county commissioners and school superintendents about how 
regular snow removal had been drastically curtailed during the late 
1980's and 1990's. Without the continuing support of Title I, the snow 
removal and road and bridge maintenance shortfalls of the 1980's and 
1990's will return.
    In summary I would submit that Title I of P.L. 106-393 has 
completely fulfilled its objectives, and the need for continuing this 
support is even greater in the next seven years than it has been over 
the last four years. I say this because if the forest counties and 
schools had to return to support from actual forest receipts have now 
declined from 1986 by 87%. In 2000, when P.L. 106-393 was enacted, we 
had experienced a 70% decline. The need for Title I has never been 
greater in our rural forest schools and counties.
    Title II of P.L. 106-393 is certainly the exemplary and 
revolutionary contribution of this Act. When Congress passed this bill 
most envisioned creating a mechanism wherein county commissioners would 
dedicate between 15 and 20% of their funds to create forest health 
improving projects on National Forest and adjacent lands. Those 
projects were to be recommended and approved by a broad-based 15-person 
local stakeholder group that by federal design had to reach consensus 
on project before recommending them to the agency for final approval. 
This was a bold public land management initiative. Today, we have 59 
active Resource Advisory Committees representing over 150 of our 
largest forest counties nationally. These Resource Advisory Committees 
in 2004 invested $48.1 million in Title II Projects on federal lands. 
To date these broad-based stakeholder committees have, through 
consensus-based decision making, approved over 2,000 projects to 
improve watersheds, wildlife habitats, and reduce the risk of 
catastrophic wildfire. Simultaneously, these projects have created a 
substantial number of jobs in local communities and made significant 
contributions toward community economic stability as originally 
intended. Finally, Title II has reduced forest management gridlock 
through its consensus based decision making process. As I stated, over 
2,000 projects have been approved. To date, no Resource Advisory 
Committee has disbanded or melted down due to unresolved differences 
and conflict. None of us would have predicted this level of success. 
Even more impressive is the fact that to date no Title II Project has 
been appealed or litigated. No other active land management initiative 
in either the Departments of Agriculture or Interior can equal such a 
track record. The lessons we are learning about collaborative public 
land management and local stakeholder involvement with our public land 
management agencies are very powerful. In our view Resource Advisory 
Committees are creating a new foundation and body of knowledge that 
will support the next generation of public land management initiatives. 
While it has been enormously successful to date, in our view, the most 
impressive contributions lie ahead of us as we learn to maximize its 
potential. An indicator of this is the fact that in each year of 
implementation the RAC's are bringing more partners, more funding 
sources, and more creative ideas to the table. Today over 30% of RAC 
Project funding comes from outside partners. Projects are becoming more 
complex, treating larger areas of our National Forests and involving 
larger numbers of partners. Each year our RAC's are learning to partner 
more effectively with state, county, federal, and private entities.
    Additionally, it is important to remember that critics of P.L. 106-
393 predicted that RAC's once established would act irresponsibly and 
authorize logging in old growth and roadless areas, propose clearcuts, 
and generally practice non-sustainable and irresponsible forest 
management. Nothing could be further from the truth. The record shows 
that no single project has been approved under Title II that remotely 
approaches any of these concerns. So, one of the real collateral 
contributions of Title II has been the creation of trust and the 
reduction of cynicism in our forest counties, and that has powerful 
possibilities for the future. In summary, Title II is reducing 
gridlock, improving the health of National Forests, and is contributing 
positively towards economic stability--one community and one National 
Forest at a time.
    Title III of P.L. 106-393 has likewise provided funds to counties, 
which have been invested to great advantage. For example:

  <bullet> Many forest counties have been able to offset the rising 
        cost of search and rescue work on federal lands. With increased 
        recreation pressure on our federal lands, rural law enforcement 
        is being called upon to provide search and rescue support at a 
        rapidly increasing rate. Without P.L. 106-393 support, most 
        counties could not meet this demand.
  <bullet> Conservation Easements--a number of counties have used Title 
        III funds to purchase conservation easements to compliment 
        efforts to conserve green spaces through their county general 
        plans.
  <bullet> Fire Prevention--a large number of forest counties have 
        invested P.L. 106-393 Title III funds in developing fire 
        prevention strategies and educating citizens in fire safe 
        actions. Since the passage of the Healthy Forest Restoration 
        Act, over 100 counties have been actively engaged in developing 
        Community Wildfire Protection Plans using Title III funding. 
        These same counties will be investing Title II funds through 
        the RAC process to implement their community wildfire 
        protection plans through HFRA. We believe this nexus between 
        Title II and III of the Secure Rural Schools and Communities 
        Act and HFRA is an example of positive synergy and effective 
        government.
  <bullet> A number of excellent forest related education programs have 
        been established with Title III funds.

    While we would concur that additional guidance and oversight is 
needed for Title III, we would be equally quick to add that most 
counties across the country have invested in projects which have made 
very positive contributions to public safety, fire prevention, 
conservation of green space and open space through easements, and 
forest education. A number of counties have used Title III funds to 
partner with public, private, and community-based/non-profit 
organizations to create important public service or public education/
information projects. The guidance and oversight provisions recommended 
in S. 267 will improve the effective use of Title III funds without 
compromising their creative/collaborative uses.
    In summary, P.L. 106-393 is a remarkable success story. It 
represents public policy at its best. It is achieving its 
congressionally intended objectives of restoring essential rural school 
and county road infrastructures through the Title I safety-net. 
Essential forest health improving projects are being created through 
Title II. Title II funds are being used as a catalyst to attract other 
federal, state, county, and private funds which allow for larger more 
effective forest health improvement projects. The work of the Resource 
Advisory Committees is building trust, reducing cynicism, and most 
important building the capacity in our major forest counties and the 
federal agencies to engage in effective stakeholder-based decision 
making. Forest management gridlock is being reduced one community and 
one forest at a time. Essential services to educate and protect our 
public, to conserve open space in our growing forest counties, and to 
plan catastrophic fire prevention in concert with the Healthy Forest 
Restoration Act, are being sponsored by Title III under P.L. 106-393. 
The legacy and accomplishment of P.L. 106-393 over the last four years 
has been positive and substantial. This law deserves to be, and should 
be, extended so it can continue to benefit the citizens of our forest 
counties, their public schools, and our national forests. Through P.L. 
106-393 we are moving closer to restoring healthy forests and healthy 
communities in the forest counties of America. The National Forest 
Counties and Schools Coalition recommends that you support S. 267 as 
presented.
    [The following attachments have been retained in subcommittee 
files:]

    A. National Forest Coalition Member List
    B. Mission Statement of the National Forest Counties & Schools 
Coalition
    C. The Case for Reauthorizing P.L. 106-393

    Senator Craig. Bob, thank you very much.
    Well, Mike, let me be frank with you, as I always have been 
in our discussions. Frankly, in saying that, I never thought 
that this particular day would come. And I say that most 
sincerely, recognizing the expressed opposition your 
organization placed against this legislation during its 
formation. But I am also not one to look a gift horse in the 
mouth, and I thank you most sincerely for your testimony today.
    Mr. Francis. I think the testimony really belongs to those 
people at the local level who sat down and worked out and 
worked on this legislation. I started the research about 6 
months ago to find out what was happening, because when I got 
done with the project, I had other things to go on to.
    Senator Craig. Sure.
    Mr. Francis. And we went through about 1,300 to 1,800 
projects, looking at them and--selecting things out and looking 
at them. And even the most paranoid part of me couldn't find 
things that were really wrong with these projects. They were 
good projects. They had good stewardship objectives on them. 
They were doing things on the land, helping the land. And when 
you came away from it, you had to say that this really worked. 
And I'm the first one to eat crow on that one. This one has 
worked. Conservationists out there on the ground feel it has 
worked, too. So----
    Senator Craig. Well, I appreciate you saying that. I think 
that's the general conclusion when we look at the total. I 
think that maybe even I could find some criticism along the 
way, but clearly our objectives are being met--in the broad 
sense and, in most instances, as you've just explained, in the 
particulars, in the real sense. That is extremely important, I 
think, for all of us.
    Is there something fundamentally wrong with putting this 
decision in the hands of those RACs that you, yourself, have 
testified are working? When we talk about that, I am talking 
about the Pilot Sort Yard Program.
    Mr. Francis. I think, in theory, it probably isn't. I 
think, in practice, though, we might be going out and trying to 
do it too fast. Based on conversations with the conservation 
members of the community out there, they all feel strongly that 
this is a check--it keeps the RACs going and focusing on their 
objectives--and that they feel that a change like this could 
lead to conflict, and that they think that right now the status 
quo--we don't have enough information, really, to know. I am 
disappointed that there haven't been more projects on that. And 
when I looked at the results of Senator Bingaman's questions 
and gone over them, I find some of the projects they listed 
as--separating the log and the contracting--as, well, not 
really there. It doesn't--one of the projects is creating mulch 
on the forests. They're using a brush hog and mulching the 
forest. I don't know where the merchantable value of leaving 
the stuff on the forest.
    And so, I don't think the Forest Service has done a good 
job of monitoring and knowing what's going on in the field. We 
don't have the information to do it. And I think the BLM person 
testifying explained, this is modeled after their stewardship 
program, and it seems to work well when it is working. And we 
think it should run another cycle and ask Congress to really 
give some directions to the administration to try to run the 
program, see how it works, then we can make a judgment of 
whether it goes. And then conservationists on the ground can 
make a judgment of whether this is as beneficial as they think 
it is.
    Senator Craig. Well, as you know, when we passed the 
legislation, it was to be a ramp-up over a 5-year period, as it 
relates to this. And at the end of the 5-year period--you've 
indicated that very few of the sort yards have been tested, and 
that seems to be the general consensus, yet you seem to have 
complete faith that they'll work.
    Mr. Francis. I have no information whatsoever that says 
they won't work. We have information from the BLM that they do 
work, because they had been using them prior to this going on. 
I think I would recommend, as a minor housekeeping measure, 
that if Congress--and we hope they would--will continue the 
program, that you start the ramp-up again. We probably ought 
not to start where we are now, because I'll be very frank with 
you--the agency, in my opinion, has not done the job of getting 
this program out there and defining what they mean by 
``merchantable materials,'' giving some guidance to regional 
foresters on how this program should be done and where you 
should do it. I don't think it was ever designed by its 
sponsors. And Senator Bingaman was one of those sponsors, so 
he'd have to answer this. But to--incidental materials were 
never meant to be covered under something like this.
    Senator Craig. Yes. Well, my next question, I think you 
have answered, as it relates to examining this and seeing its 
worth. And I think that's a reasonably good suggestion to 
proceed on. So we'll leave it at that.
    Mr. Francis. Thank you, Mr. Chairman.
    Senator Craig. Bob, I don't want to belabor what I said 
earlier, but I want to thank you for your testimony. And I want 
to thank you for your coalition's involvement in the 
implementation of Public Law 106-393. I know you understand 
that the passage of it was to be a short-term safety net. And 
with the introduction of S. 267, we are about to cross the 
Rubicon on the term ``short term.''
    In an informal survey of forest supervisors, by my staff, 
we've been asking them if they received more or less input from 
county commissioners and school superintendents on forest-
related activities, now that we have been living under Public 
Law 106-393. Not surprisingly, to a supervisor, they have 
indicated they have fewer calls from county commissioners and 
school superintendents. And I know that you also heard my 
concern to Mr. Rey related to the falling Forest Service 
revenues--or receipts, I should say.
    What specific steps would you suggest we take to improve 
Forest Service revenues based on your observations? And do you 
understand what will happen if the Treasury must continue to 
pick up more and more of the total cost of these programs?
    Mr. Douglas. Thank you, Mr. Chairman.
    I would respond to the first question by saying that our 
coalition has asked and supported both HFRA and other measures 
that would lead to more active forest management on our 
national forests. And I think you are very familiar, and most 
Members of the committee are familiar, with the principles upon 
which this coalition was founded, both short term and long 
term.
    We are on the record as favoring active forest management 
in a sustainable way. And we believe that, in fact, receipts 
can be generated on the national forests in a sustainable, 
long-term manner, and protect the ecosystem that is out there. 
And so, we are favorably disposed toward supporting efforts to 
do timely reforestation after catastrophic events.
    We hope that HFRA is extended to allow for more timely 
reforestation and intervention in post-catastrophic events--
that would certainly be an area that our coalition would 
encourage the Congress to further explore--to maximize the 
efforts under the Healthy Forest Restoration Act to essentially 
do forest restoration.
    We believe that it's going to be very difficult, as a 
coalition, as you pointed out earlier, to fund long-term forest 
restoration at the scale that is needed in the U.S. National 
Forest System, off of the appropriation process. We think that 
some of the ability to pay for that must come from reinvesting, 
harvesting commercial materials off of the national forest, and 
putting them into the American market. Now, saying that, I 
would hasten to add that--within a context of long-term 
sustainability and ecosystem protection.
    Senator Craig. Okay.
    Now, you've testified on how well the RACs have been 
working. And I appreciate that. It's always good to hear that. 
I have visited with several of them over the last good number 
of years. I've sat in the back of the room and watched the 
interaction that goes on. And it's always amazing to me, and 
gratifying. At the end, they can decide not to decide, or they 
can decide to decide and move forward.
    At our last hearing on the implementation of Public Law 
106-393, I asked Under Secretary Rey if earmarking a certain 
percentage of the Forest Service budget to be expended through 
RACs outside of existing Public Law 106-393 funds would be a 
good idea, and he avoided directly answering the question.
    So my question to you is, If Congress were to earmark 15 
percent of the Forest Service and BLM budget to be invested in 
Resource Advisory Committees, in the projects they've 
recommended, do you think that would be helpful at the local 
level?
    Mr. Douglas. I think our coalition would be supportive of 
that kind of a concept. We have certainly had those 
discussions, with both the Forest Service and the Department of 
the Interior in the past, and recommended that, given the 
success, and given the ability--a seemingly ability of Resource 
Advisory Committees who have resources to expend to overcome 
gridlock and agree--as Mr. Francis reported, and I did, too--
overcome the gridlock, agree upon projects, and do that in a 
way that we can move forward, we believe that the concept of 
earmarking some portion of the agency's budget, or certain 
kinds of programs that would be referred to the RACs, could be 
a way to move forward and get some of the projects out on the 
national forests and BLM lands done that we all know need to be 
done.
    Senator Craig. You've testified on the need for some 
oversight on the implementation of title III projects. And 
you've listened to Mark Rey's answer and explanation of the 
changes they would like us to consider. What are your thoughts 
on Mark's suggestions as it relates to title III and how they 
would be dealt with through the RAC system?
    Mr. Douglas. I think that that's an alternative that we 
should explore. We have not thoroughly discussed that 
alternative within the coalition, although I'm recalling, 5 
years ago in this process, that is one of the options that was 
explored as the first bill was being put together.
    I think, at this juncture, we know a lot more about 
Resource Advisory Committees and how they will function than we 
knew then, and certainly the counties know how the Resource 
Advisory Committees--so I think that's a viable alternative 
that needs to be explored by the coalition and by the Members 
of the committee.
    Senator Craig. Thank you very much, Bob.
    Mike, I want to leave you with this last thought. I have 
very serious concerns about your testimony suggesting that the 
approval by the Clearwater RAC of funding to help fund NEPA 
work on two commercial timber sales is out of step with the 
law's purpose of maintaining existing infrastructure.
    First, if the RAC approved the sale, it would indicate that 
the projects have local acceptance. Second, nowhere in Public 
Law 106-393 did we indicate that timber sales would not be 
undertaken. In fact, the ``maintenance of infrastructure'' 
language was aimed at maintaining a forest products industry to 
work in our forests. And I understand that the Wilderness 
Society would dearly like to see our forest products industry 
disappear, if you will, in most instances. But I guess I would 
say, please don't attempt to rewrite the legislative history of 
the bill by suggesting that Congress didn't want or expect the 
RACs to consider or undertake commercial timber harvesting. I 
believe, based on my experience, that nothing is further from 
the truth.
    Would you like to comment on that?
    Mr. Francis. I would. First of all, I know it's easy to say 
the Wilderness Society doesn't like the timber industry. We are 
not an ``end commercial logging'' organization. We've never 
supported that part.
    The reason I put that example in there--I agree with you, 
there's nothing in the law that says commercial timber sales 
are not--are prohibited or do not function. It was to point out 
the fact, in my statement, about the change of direction if 
Congress moves to eliminate the pilot program. You know, when 
these sales should be allowed. They're allowed. But we need to 
have a kind of a balance in how we do these sales to make sure 
there are some stewardship objectives that are still being 
maintained in the law.
    I used the project as--if Congress sends the wrong signals, 
that the pilot programs aren't essential, projects like these 
could become--you know, could become more controversial, I 
think, and could cause problems. And that's why I put it in my 
testimony.
    I agree with you, it is covered under the law. The 
Wilderness Society doesn't object to projects like that.
    Senator Craig. Okay. I thank you for that clarification, 
appreciate it.
    Gentlemen, thank you both, for being before the committee.
    Let me close with this thought, because I have growing 
concerns that while this law is working well, it is a very 
large chunk of money out of the U.S. Treasury. We all know 
that, and that's why we're struggling, at this moment, to try 
to claim our place inside that budget, for all the reasons that 
most of you have spoken to this morning. And I think, for some 
of the benefits that are growing out of the relationships that 
weren't really seen in--by some, and by all of us in some 
instances, at its formation. But we have a major problem, and 
it is a problem of perception and reality.
    There is a historic perception, on the part of Congress, 
that the Forest Service was a relatively self-funding 
organization. When we look back at the 1980's, when they were 
producing probably 75 to 80 percent of their revenue--yes, it 
went into the general fund, no question about it, but, then 
again, there were claims to it, and obviously it could be 
argued that this was a large agency, in large part supporting 
itself. By 1997, we were at about 50-50.
    Today, gentlemen, the chart is going to look like this. And 
I'm doing work on it now to try to better understand it. These 
are receipts, and these are expenditures. About 3 to 4 percent 
of the total Forest Service budget is now covered by receipts. 
And the reality is that we're not funding the Forest Service at 
the levels necessary, for a variety of programs, and almost all 
of them deal with conservation, with water quality, and on and 
on and on and on and on--reforestation after fires. We play the 
fire game, and we steal--we borrow--it's been stealing, in the 
last few years, because we haven't been replacing all the 
money.
    I think our challenge is to help the Congress perceive and 
understand the differences that have occurred in two decades of 
time, largely driven by public policy. Some I was critical of, 
some I'm not. But the reality is, there's been a very 
significant change.
    The first victim of the change that was a perceivable 
victim was, of course, county payments. It was dollars on the 
ground, schools in crisis, and counties in trouble. And, of 
course, we've responded to that. But we haven't responded to 
fire, and we haven't responded to a lot of other things that 
are necessary out there as we struggle to get these budgets in 
balance. And so, because of a decline in receipts, it is very 
difficult, or increasingly difficult, to argue, without a 
broad-based perception during times of deficits and tight 
budgets, that we ought to sustain these levels and ask for more 
in areas where we know we're short, or we haven't replenished 
funds as a result of borrowing out of them for these 
catastrophic fire seasons that we've been having over the last 
six or 7 years.
    I express that as a broad-based concern of this Senator, 
and, I think, of this committee, that those of us that spend 
more time looking at the management of our public lands than, 
maybe, other Senators do, and then we get to these points of 
budget, when we're trying to be advocates of these agencies to 
make sure they get the proper funding, to run it up against all 
kinds of excuses coming from other Senators that we're missing 
the point, that we're pushing money from somewhere else to fund 
what otherwise would have been funded, or could have been 
funded.
    I express that simply as a closing thought, because it's 
the circumstance in which this Congress lives today, and will 
continue to live under these current relationships. And I'm not 
advocating, in any way, that we could effectively return to the 
receipts levels of the 1970's or the 1980's. That's not my 
point. My point is simply to argue that we've got a problem, a 
significant problem. Work is not being done on the ground that 
ought to be done, for all the right reasons. And here is one 
little example of some successes, but there is a much broader 
effort out there that needs to be undertaken, that isn't being 
funded.
    So, your assistance in all of these areas would be greatly 
appreciated. You all have access to my colleagues to argue 
certain points. I would argue that funding of Forest Service 
budgets and BLM budgets is critically important for the 
environment and the quality of our public land management.
    Gentlemen, thank you for your time and your commitment. And 
I appreciate your testimony before this subcommittee this 
morning. Thank you.
    Mr. Francis. Thank you, Mr. Chairman.
    Senator Craig. The committee will stand adjourned.
    [Whereupon, at 11:25 a.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

                         Department of Agriculture,
                                   Office of the Secretary,
                                    Washington, DC, March 25, 2005.
Hon. Larry E. Craig,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Craig: Enclosed please find the Department's responses 
to the written questions from the Subcommittee hearing on March 8, 
2005, regarding the reauthorization of the Secure Rural Schools and 
Community Self-Determination Act of 2000.
            Sincerely,
                                                  Mark Rey,
             Under Secretary for Natural Resources and Environment.
[Enclosures.]
                      Questions From Senator Craig
    Question 1. I see that you are interested in some changes in the 
section of S. 267 that calls for audit reports of the Title III 
projects. I think I understand the concept. Are you recommending that 
Title III funding only be used to pay for hazardous fuel reduction 
projects in the WUI on non-federal land?
    Answer. No, we are recommending that a priority be placed on using 
Title III funds for hazardous fuel reduction projects. We would not 
recommend eliminating the other current funding categories but rather 
adding hazardous fuels projects as a priority. The counties would 
continue to determine which of the projects are funded, but could fund 
only projects that are recommended by RACs.
    Question 2. What would the impact of that be on those counties that 
use Title III to repay counties for search and rescue and other police 
work on federal lands? Can you give us your estimate of how much of the 
Title III funding has been expended on reimbursement for search and 
rescue work?
    Answer. According to a report being prepared by Jonathan Kusel of 
Forest Community Research, counties in California expend approximately 
32 percent of Title III funds for search and rescue work. Putting 
priority for the use of Title III funds towards hazardous fuels 
projects would give the counties more options in addressing hazardous 
fuel conditions in the wildland urban interface however; if search and 
rescue or law enforcement assistance is also a high priority for county 
government then funding for that work is still allowable under Title 
III.
    Question 3. During the Clinton Administration, the Forest Service 
pursued the concept of utilizing sort yards to market timber sales in 
its normal operations. Then the County Schools BM included the concept. 
We are attempting to fmd out what the outcome of the Clinton era sort 
yard initiative was. We understand that within P.L. 106-393, you only 
have six projects that might test the concept, but were there others 
outside the RAC process and did any of them work? What is the status of 
the sort yard initiative, unrelated to county schools? Are the regions 
still attempting to test the concept of utilizing sort yards in your 
normal timber sale program?
    Answer. The sort yard initiative is part of the stewardship program 
and has been tested in a few locations. Two projects using ``delivered 
log contracts'' are included in the stewardship contracting report, 
``Implementation of Multiparty Monitoring and Evaluation: The USDA 
Forest Service Stewardship End Results Contracting Demonstration 
Program'' for FY2003, Pinchot Institute, 2004. This report, excerpts 
attached, documents monitoring and evaluation of the stewardship 
contracting program. The evaluation found that the two ``delivered log 
contracts'' projects experienced a low bid response and contract 
administration costs were higher than regular timber sale contracts. 
Sort yards could be used under the Secure Rural Schools Act (P.L. 106-
393) and continue to be used in stewardship contracting when market 
conditions are suitable. The sort yard initiative has not been 
considered in our normal timber sale program because the contract and 
administration costs would be higher and there would be a greater risk 
to the government for loss.
    Question 4. On an unrelated subject, I note that this past Friday 
the agency announced a plan to pursue independent third party 
certification on six National Forests. In the past this Administration 
and others have resisted the suggestion that certification be pursued. 
Why the change?
    Answer. We are considering a field test of forest certification 
using six forests. Recently the Forest Service promulgated a new 
planning rule, which includes an Environmental Management System (EMS) 
creating a feedback loop to determine how well we are meeting our goals 
and incorporating a third party auditing process. By testing a forest 
certification system in conjunction with our EMS, we believe that field 
testing will help us better understand third party audits and 
strengthen our ability to introduce an effective EMS.
    Question 5. What steps will the agency take to guarantee that the 
people who undertake the certification process are people who will 
provide a scientific certification untainted by political bias?
    Answer. Auditors from the independent audit community whose members 
have experience with the certification systems and meet the 
impartiality standards will be used in the field test. For the EMS, the 
Forest Service will be sponsoring an independent certifying body that 
will adhere to impartiality standards. This certifying body will be a 
board similar to the FSC and SFI oversight boards which assure 
independence of auditors.
    Question 6. At the end of this process if the independent third 
party concludes that current management is unsustainable, either due to 
over management or under management, will the Forest Service take 
immediate steps to address those problems?
    Answer. We are exploring the applicability of forest certification 
to national forests. The purpose for conducting these tests is to 
identify ``gaps'' between Forest Service management and direction and 
those required by the two certification systems. Depending on the 
extent and content of any gaps identified, we could take a wide variety 
of actions that would allow conformance, or we might decide to continue 
with our existing management.
    Question 7. If, for instance, the certification process on the Mt. 
Hood shows that the forest cannot be sustained without additional 
management, how long would it take under the forest planning process to 
make the changes recommended by the certification process?
    Answer. We have not yet begun our testing process to determine the 
applicability of the forest certification process or to make any 
determination on what appropriate management changes would be based on 
third party monitoring. Any changes to the forest plan will be 
accomplished through our regular revision and amendment process under 
the new planning rule. We will be keeping the Committee informed as we 
learn from our testing program.
                    Questions From Senator Bingaman
          s. 179, the sierra national forest land exchange act
    Question 1. As I understand it, Shaver Lake is primarily used in 
the summer for fishing, sailing, swimming, boating, and other related 
recreational activities. Would the transfer of the Federal subsurface 
lands to the Boy Scouts affect the public's access to waters above 
those lands for these recreational activities?
    Answer. Transfer will not change current recreational access. The 
above-surface lands to be transferred are currently under a Special Use 
Authorization to the Boy Scouts as part of their local camp. The public 
has had, and will continue to have, access to all the waters of the 
reservoir.
    Question 2. Would this transfer affect in any way the Forest 
Service's mandatory conditioning authority under the Federal Power Act?
    Answer. Transfer will not affect Forest Service authority in this 
licensing proceeding. There are other National Forest System lands 
within the project boundary.

                                              Table 3.2.--PROJECTS
                                              [Status for FY 2003]
----------------------------------------------------------------------------------------------------------------
             Project Name                     Leg. Auth.          Administrative Unit             State
----------------------------------------------------------------------------------------------------------------
Region 1--Northern
    Tobacco Roots....................  Sec. 338...............  Beaverhead/Deerlodge NF  MT
    Westface.........................  Sec. 338...............  Beaverhead/Deerlodge NF  MT
    Butte South......................  Sec. 332...............  Beaverhead/Deerlodge NF  MT
    Bitterroot Burned Area             Sec. 338...............  Bitterroot NF..........  MT
     Restoration.
    Sheafman Restoration.............  Sec. 338...............  Bitterroot NF..........  MT
    North Fork Big Game Habitat        Sec. 347...............  Clearwater NF..........  MT
     Restoration.
    Three Mile Restoration Project...  Sec. 347...............  Custer NF..............  MT
    Condon Fuels Project.............  Sec. 332...............  Flathead NF............  MT
    West Glacier Fuels Project.......  Sec. 332...............  Flathead NF............  MT
    Paint Emery Stewardship            Sec. 347...............  Flathead NF............  MT
     Demonstration.
    Main Boulder Project.............  Sec. 332...............  Gallatin NF............  MT
    Clancy-Unionville Project........  Sec. 332...............  Helena NF..............  MT
    North Elkhorns...................  Sec. 332...............  Helena NF..............  MT
    Alice Creek/Nevada Dalton........  Sec. 338...............  Helena NF..............  MT
    Iron Honey.......................  Sec. 338...............  Idaho Panhandle NF.....  ID
    Priest Pend Oreille Land           Sec. 347...............  Idaho Panhandle NF.....  ID
     Stewardship.
    Treasure Interface...............  Sec. 338...............  Kootenai NF............  MT
    Yaak Community Stewardship         Sec. 347...............  Kootenai NF............  MT
     Contracting.
    Dry Fork Project.................  Sec. 332...............  Lewis & Clark NF.......  MT
    Judith Vegetation & Range          Sec. 338...............  Lewis & Clark NF.......  MT
     Restoration.
    Dry Wolf Stewardship Project.....  Sec. 347...............  Lewis & Clark NF.......  MT
    Frenchtown Face..................  Sec. 332...............  Lolo NF................  MT
    Game Range.......................  Sec. 338...............  Lolo NF................  MT
    Clearwater Stewardship...........  Sec. 347...............  Lolo NF................  MT
    Knox-Brooks Stewardship Project..  Sec. 347...............  Lolo NF................  MT
    Red River Watershed Project......  Sec. 332...............  Nez Perce NF...........  ID
    Meadow Face Stewardship Project..  Sec. 347...............  Nez Perce NF...........  ID
Region 2--Rocky Mountain
    Seven Mile.......................  Sec. 338...............  Arapaho-Roosevelt NF...  CO
    Mt Evans Collaborative             Sec. 347...............  Arapaho-Roosevelt NF...  CO
     Stewardship.
    Winger Ridge.....................  Sec. 347...............  Arapaho-Roosevelt NF...  CO
    Ryan Park/Ten Mile...............  Sec. 338...............  Medicine Bow-Routt NF..  CO
    Upper South Platte Watershed       Sec. 338...............  Pike-San Isabel NF.....  CO
     Project.
    Beaver Meadows Restoration.......  Sec. 347...............  San Juan/RioGrande NF..  CO
    Southwest Ecosystems Stewardship.  Sec. 347...............  San Juan/RioGrande NF..  CO
    Upper Blue Stewardship...........  Sec. 347...............  White River NF.........  CO
Region 3--Southwestern
    Mogollon Rim Biomass Utilization   Sec. 332...............  Apache-Sitgreaves NF...  AZ
     Project (formerly NF Biofuels to
     Energy).
    Montlure/Benne Thinning and Fuels  Sec. 338...............  Apache-Sitgreaves NF...  AZ
     Reduction.
    Ranch Iris.......................  Sec. 338...............  Apache-Sitgneaves NF...  AZ
    Cottonwood/Sundown Watershed       Sec. 347...............  Apache-Sitgreaves NF...  AZ
     Project.
    Zuni-Fora Corners Sustainable      Sec. 338...............  Cibola NF..............  AZ
     Forestry Initiative.
    Grand Canyon Stewardship Project.  Sec. 347...............  Coconino NF............  AZ
    East Rim Vegetation Mgt. Project.  Sec. 338...............  Kaibab NF..............  AZ
    Schoolhouse Thinning.............  Sec. 338...............  Prescott NF............  AZ
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
                  Statement of Andrea Bedell Loucks, 
                   Pinchot Institute for Conservation
    [. . .] work areas, it can be easily tailored to meet project needs 
(Burns Creek-R8, 2003). Others have found that it offers the most 
flexibility in fostering local community participation with minimal 
upfront costs (Foggy Eden-R6, 2003).
                               agreement
    Four projects (9% of those reporting) indicate using some form of 
agreement to implement activities. For example, in the Winiger Ridge 
Project (R2), the Boulder Ranger District on the Arapaho-Roosevelt NF 
is working with the Colorado State Forest Service (CSFS) to implement 
cooperative agreements for treating units with poor access. This later 
developed into ``Good Neighbor Policy'' opportunities that allow the 
CSFS to help treat areas that are steep, with no access except by the 
adjacent neighbor (Winiger Ridge-R2, 2003).
                                 other
    Eight projects (17% of those reporting) are using other contractual 
arrangements for project implementation. These include:

  <bullet> Construction contracts with product removal included. This 
        mechanism was chosen because it permitted concurrent completion 
        of vegetation treatments and trail construction within a single 
        contract (Forest Discovery Trail-R9). Also, the bulk of the 
        complexity in the contract may refer to construction activities 
        (e.g., bridge building facility construction, recreational 
        improvements), with any timber extraction relatively easy to 
        contract and convey (Dry Wolf-R1, 2003)
  <bullet> Delivered log contracts (``separating the logger from the 
        log''). This mechanism was chosen to experiment with removing 
        any real or perceived incentive for a contractor to cut more 
        trees or more valuable trees than necessary to achieve a 
        prescription. The service contractor bids and is paid on a per 
        acre basis for on-the-ground activities. Any trees removed are 
        sold separately, and--the receipts are retained and used to pay 
        service contract costs (Paint Emery -RI, 2003).
3.7 Process Review: Contractor Selection
3.7.1 The Bidding Process
    Despite a high level of initial interest on the part of local 
contractors, most stewardship projects have experienced unexpectedly 
low numbers of bids for contracts, with an average of two bids per 
contract solicitation (high: 9 bids, low: 0 bids per project) (Appendix 
E). With these low response rates, some forests have surveyed or plan 
to survey contractors to identify ways to clarify contracts and 
associated requirements (Meadow Face-R1 and Paint Emery-R1, 2003). 
According to some surveys' findings, low response rates have been 
linked, in pant, to the increased complexity of contract requirements 
and perceived higher risk associated with implementation.
3.7.2 The Selection Process
    In FY 2003, individual projects and Local Teams also provided 
information on the selection criteria used by coordinators and managers 
to award stewardship contracts (Appendix E). Across the country, the 
selection criteria, ranked from most important to least important, 
were:

    1. Price.
    2. Technical proposal--generally summarizes the types and condition 
of equipment used, organizational structure and focus, staffing and 
management details, understanding of work to be performed, work 
schedule, and production capacity.
    3. Use of by-product--includes contractor's ability to manufacture 
and market by-products, flexibility in delivery time, assurance of 
weight, and ticket accountability.
    4. Past performance--includes a narrative explaining contractor 
experience with logging methods, documentation of logging certificates, 
professional logger training, safety training, experience in 
merchandising, experience with similar projects, dependability, 
compliance with contract time, etc.
    5. Local economic benefit--highlights the contractor's commitment 
to recruiting and/or hiring subcontractors and workers from the 
``local'' area.

    These results differ slightly from previous years. For example, 
compared to last year, price has increased in its importance (from 2nd 
place in FY 2002 to 1st place in FY 2003), while past performance has 
slipped somewhat in award consideration (from 3rd place in FY 2002 to 
4th place in FY 2003).
3.8 Funding and Costs Overview
3.8.1 Funding Overview
    As in previous years, financial analysis of the program is 
problematic. Individual projects provided information on sources and 
adequacy of finds to support planning, implementation, and monitoring 
efforts. However, because the Forest Service does not have standardized 
methods for recognizing and accounting for revenues and expenses on a 
project basis, most figures were presented as rough estimates.
    Based on these estimated figures, minor trends continue to 
illustrate how projects are securing financial support for activities. 
Based on FY 2003 data, sources of funding for former pilots include 
federal appropriations, product value exchanged for services, retained 
receipts and cooperator contributions (Table 3.8, Appendix F). Only 
slight differences can be found from previous years. For example, in FY 
2002 retained receipts funded more project activities than they did 
this year. In part, this change may be due to confusion over how best 
to apply the various authorities (see Sec. 62.1). National Fire Plan 
funding has also resulted in some projects receiving higher than 
average appropriated dollars or salvage rights (SWRT, 2003).

                 Table 3.7.--FUNDING AND COSTS OVERVIEW
                               [Subtitle]
------------------------------------------------------------------------
                                                        Percent of Total
                                                       -----------------
                                                         FY2002   FY2003
                                                         (N=52)   (N=55)
------------------------------------------------------------------------
Funding
    Appropriations....................................    41%      67%
    Product Exchanged for Service.....................    20%      16%
    Receipts Retained.................................    24%       8%
    Cooperator Contribution...........................    15%       5%
    Other.............................................      X       4%
Costs
    Planning and NEPA.................................    48%      53%
    Service Contract..................................    16%      17%
    Contract/Sale Preparation.........................    23%      15%
    Contract/Sale Administration......................    10%       3%
    Citizen Involvement...............................     2%       3%
    Monitoring and Evaluation.........................     1%       2%
    Other.............................................      X       7%
------------------------------------------------------------------------

3.8.2 Costs Overview
    A review of FY 2003 cost data, coupled with results from previous 
years, highlights trends in cost parameters and potential financial 
obstacles for projects (Table 3.8, Appendix G). Planning and NEPA 
continue to be the highest costs for projects, followed by-individual 
service contracts, and contract/sale preparation. Once again, these 
trends mirror those detected in FY 2002. Some of these costs, 
particularly those associated with NEPA compliance, appear high due to 
the fact that some analyses and associated processes often cover areas 
that encompass many projects, not just anticipated treatment acres 
within the stewardship contracting project itself.
3.8.3 Cost Comparisons
    Because of differing project sizes and complexities, in addition to 
a reliance on estimated figures, financially comparing project efforts 
to one another is not a useful exercise. However, project-specific 
comments offered by coordinators and Local Teams can be used to discuss 
the impacts of new authorities on cost savings or inflation. As can be 
expected, a variety of experiences have been had due to the diverse 
nature of project activities, funding mechanisms, and contractors 
involved.
                          administration costs
    Several projects have found that the proper use of the expanded 
authorities has resulted in significant cost savings to the government, 
including savings in project administration: For example, the Winiger 
Ridge Project (R2) found that ``. . . because a contract utilizing 
designation by description does not carry the detail of a precise 
cruise for volume and appraisal for value, there is a saving of money 
and time in preparation of the contract.'' The Forest Discovery Trail 
(R9) also found that through ``. . . a combination of construction and 
timber sale contracts, thus avoiding a separate timber sale contract, 
costs were saved of advertising pre-bid showing and some contract 
administration costs.'' Other projects have found that specific 
elements of stewardship contracting (e.g., trading goods for services) 
leave accountability requirements for tracking bonds and timber sale 
statements of accounts (TSSA) at a much simpler and more manageable 
level (Seven Mile-R2, 2003).
    However, some projects have found that the costs of administering a 
stewardship contract have been higher, particularly when compared to 
the use of a traditional timber sale. Contract administration for 
stewardship contracting projects involving both service and timber sale 
contract elements require that personnel be certified as both timber 
sale administrators and contracting officer's representatives. As such, 
training costs are often much higher for the administration of these 
projects (Sheafman Restoration-R1, and Paint Emery-R1, 2003). Contract 
administration teams have also had to maintain a presence on a job site 
during all contractor working hours because of an increased need for 
accountability (Paint Emery-R1, 2003). Bundled services, using 
subcontractors, also require more coordination by administration 
personnel (Paint Emery-R1, 2003).
    Several other projects have found that there was. little to no 
difference in administrative costs associated with these innovative 
mechanisms as compared to more traditional contracts (Southwest 
Ecosystems-R2, Burned Area-R1, Montlure Benny-R3, First Thinning 
Loblolly-R8, 2003).
                          implementation costs
    Some projects have seen direct savings in the implementation of a 
project For example, in the Grand Canyon Project (R3) ``. . . the goods 
for services contracted was [sic] $100 less (per acre) than comparable 
contracts without goods for services.'' However, the value of wood 
harvested has not always offset the entire cost of thinning (Grand 
Canyon-R3, 2003). The Wayah Contract Logging Project (R8) found cost 
savings through facilitation of on-site changes as needed (Wayah 
Contract Logging-R8, 2003).
                            monitoring costs
    Monitoring requirements were also identified as an additional 
expenditure typically not required within a standard service contract 
or traditional timber sale (Montlure Benny-R3, First Thinning Loblolly-
R8, and Paint Emery-RI, 2003). As such, the monitoring component of 
stewardship contracting elevated costs over those projects utilizing 
more traditional contracting or agreement mechanisms.
                                 ______
                                 
                        Department of the Interior,
           Office of Congressional and Legislative Affairs,
                                    Washington, DC, April 15, 2005.
Hon. Larry E. Craig,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: Enclosed are responses prepared by the Bureau of 
Land Management and the U.S. Geological Survey to questions submitted 
following the March 8, 2005, hearing on S. 213, ``To direct the 
Secretary of the Interior to convey certain Federal land to Rio Arriba 
County, New Mexico;'' S. 267, ``To reauthorize the Secure Rural Schools 
and Community Self-Determination Act of 2000;'' and S. 485, ``To 
reauthorize and amend the National Geologic Mapping Act of 1992.''
    Thank you for the opportunity to provide this material to the 
Subcommittee.
            Sincerely,
                                             Jane M. Lyder,
                                               Legislative Counsel.
[Enclosure.]
                      Questions From Senator Craig
                                 s. 267
    Question 1. On S. 267 if you found one of your BLM districts had 
not contributed 50% of the O&C revenues to help fund P.L. 106-393 what 
steps would your agency take?
    Answer. The BLM districts do not play a role in the contribution of 
revenues in connection with Public Law 106-393 because all revenues 
derived from O&C sales are transmitted directly to the BLM's National 
Business Center located in Denver, Colorado. Upon receipt of these 
funds, the National Business Center then deposits the revenues from the 
O&C lands into Treasury account 14-5882, the Oregon and California 
Land-Grant Fund, and from the Coos Bay Wagon Road lands into Treasury 
account 14-5897, the Coos Bay Wagon Road Fund.
    Question 2. What auditing mechanism does the BLM have in place to 
ensure that the correct contributions have been made?
    Answer. On an annual basis, the Department's Office of Inspector 
General contracts with an independent certified public accounting firm 
to audit the BLM's financial statements for each fiscal year. The most 
recent audit audits were performed by KPMG LLP for fiscal years 2003 
and 2004. The contract required that KPMG conduct its audit in 
accordance with U.S. generally accepted government auditing standards; 
Office of Management and Budget Bulletin 01-02, as amended, Audit 
Requirements for Federal Financial Statements; and the Government 
Accountability Office/President's Council on Integrity and Efficiency's 
Financial Audit Manual.
    FY 2004 was the 10th consecutive year that the BLM received a clean 
audit report.
    Question 3. Can you provide the Committee with evidence that such 
an audit has been completed for each year since 2000?
    Answer. The ``Independent Auditors' Report on the BLM's Financial 
Statements'' for each fiscal year is published in the BLM Annual Report 
for that fiscal year. The BLM's Annual Audit Reports for the period you 
requested are attached.
                                 s. 213
    Question 4. Are you suggesting that you might not support the 
conveyance of all 150 acres, or that you may not support that portion 
that does not apply to provisions of the Recreation and Public Purposes 
Act?
    Answer. As noted in our testimony, the Department supports the 
conveyance set forth in S. 213. However, we believe the bill should be 
amended to protect valid existing rights, and we recommend some 
technical clarifications. We would be happy to work with the 
Subcommittee and the sponsors on these recommendations.
                    Questions From Senator Bingaman
 s. 267, the secure rural schools and community self-determination act
    Question 1. List all BLM-approved Title II projects that involve(d) 
the sale of merchantable material.

----------------------------------------------------------------------------------------------------------------
                                                                                           Implement in Fiscal
             Project Name                   BLM  District          Year of  Approval               Year
----------------------------------------------------------------------------------------------------------------
Southern Flame Density Management....  Salem..................  2002 & 2003............  2006 or 2007
Thomas Creek LSR Young Stand           Salem..................  2003 & 2004............  2005 or 2006
 Management.
Thomas Creek LSR Variable Density      Salem..................  2002 & 2003............  2005 or 2006
 Thinning.
Matchbox.............................  Lakeview...............  2003...................  2004
Boaz Forest Health & Small Diameter    Medford................  2002...................  2003
 Utilization.
Beck Road White Oak Release..........  Salem..................  2002\1\................  2003 or 2004
Galesville LSR Enhance./Small Dia.     Medford................  2002 & 2003............  2004
 Removal.
Upper Umpqua Forest Habitat            Roseburg...............  2003...................  2004
 Improvement.
Smith River Stream Habitat             Roseburg...............  2003...................  2004
 Improvement.
Shivley Creek LSR Habitat Improvement  Roseburg...............  2003...................  2004 or 2005
Penny Stew (aka Scattered Apples)....  Medford................  2004...................  2005
Nestucca Jane Creek Restoration......  Salem..................  2004...................  2005 or 2006
----------------------------------------------------------------------------------------------------------------
\1\ The project was not recommended by the RAC for Phase II (Implementation)

    Question 2. Which of the projects referred to above utilized 
separate contracts for the harvesting or collection of the merchantable 
material, and for the sale of such material?
    Answer. Matchbox, Galesville LSR Enhancement, and Smith River 
Stream Habitat Improvement (in bold) were selected as BLM Title II--
Pilot Projects where separate contracts were utilized to harvest and 
sell the merchantable material.
       s. 485, the national geologic mapping reauthorization act
    Question 1. Your statement referenced mapping groundwater 
resources. What is the extent of the hydrogeologic mapping under this 
program?
    Answer. Geologic maps provide critical surface and subsurface 
information needed to properly describe the geometry and extent of 
ground water aquifers. While all geologic maps can be used for multiple 
purposes, each year we discover that more geologic mapping projects are 
designed to address ground water issues and answer critical 
hydrogeologic questions. Approximately 60% of the budget of the 
National Cooperative Geologic Mapping Program (NCGMP) is spent on 
projects primarily interested in ground water issues. One excellent 
example of federal/state geologic mapping cooperation has been underway 
for the past decade in the sedimentary basins underlying Albuquerque 
and Santa Fe, New Mexico. Both the USGS and the New Mexico Bureau of 
Geology and Mineral Resources have produced over 125 geologic maps, and 
several regional aeromagnetic maps that show many faults in the 
subsurface that were unrecognized before, and which have a major 
influence on the extent and flow of ground water. All of these products 
are being used to create a model of the ground water system(s) in these 
basins. These models in turn are being used by the New Mexico State 
Engineer's Office and the water offices in both Santa Fe city and Santa 
Fe County. This information is used by water managers to make decisions 
about future water need and use.
    Question 2. Are there many high priority areas remaining to be 
mapped? Are you continuing to identify new areas to be mapped? How does 
the process of identification work?
    Answer. Roughly 25% of the Nation has been mapped geologically in 
modern times, and many new areas are being identified as needing 
geologic mapping. Therefore, NCGMP must prioritize the geologic mapping 
that we do. Several important prioritization processes are used. As 
required in the National Geologic Mapping Act, every state geological 
survey that receives NCGMP funds through a competitive grant process 
must assemble a State Mapping Advisory Committee. These committees are 
broad-based and contain a spectrum of government officials, private 
sector consultants and businesses, university professors, water and 
health officials, etc. Over 500 people in 47 states are currently 
serving on State Mapping Advisory Committees. These experts help each 
state geological survey write a long-range geologic mapping plan and 
set priorities for new geologic maps. While the USGS Fedmap projects 
consider suggestions of these important State committees, we employ 
additional procedures to align our regional mapping efforts with 
Federal priorities. We coordinate our planning with our closest 
partners in the USGS Ground Water Resources Program, the National Park 
Service (NPS), the Bureau of Land Management and the U.S. Forest 
Service. For example, the NPS (particularly the Geologic Resources 
Division) routinely prioritizes national parks in need of geologic 
mapping to address resource management issues. Using this prioritized 
list of parks, and determining where USGS and NPS can best leverage 
resources, NCGMP has produced geologic maps in over 40 national parks 
since passage of the National Geologic Mapping Act in 1992. Similar 
procedures are used with other sister agencies in the Federal 
Government.

                                <all>
            
      

</pre></body></html>
